APPENDIX TABLE OF CONTENTS
Opinion of the Eleventh Circuit
(May 10, 2019) .................................................... 1a
Memorandum Opinion of the District Court of
Alabama (February 12, 2018) .......................... 11a
Final Order of the District Court
(February 12, 2018) .......................................... 43a
Memorandum Opinion and Order of the District
Court for the Northern District of Alabama
(July 17, 2017) .................................................. 45a
Order to Show Cause
(June 9, 2017) ................................................... 48a
Opinion and Order of the District Court for the
Middle District of Alabama
(December 9, 2016) ........................................... 53a
Plaintiff’s First Amended Complaint
(July 21, 2017) .................................................. 61a
Notice of Removal
(November 16, 2016) ........................................ 83a

App.1a
OPINION OF THE ELEVENTH CIRCUIT
(MAY 10, 2019)
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
ASHLEY WILCOX PAGE,

Plaintiff-Appellant,
v.
TODD L. HICKS, NNA, CRNA,
SUSAN P. MCMULLAN, PHD, CRNA,
PETER M. TOFANI, MS, LTC (R),
UNIVERSITY OF ALABAMA AT BIRMINGHAM,
UNIVERSITY OF ALABAMA,
BOARD OF TRUSTEES,

Defendants-Appellees.

________________________
No. 18-10963

D.C. Docket No. 2:16-CV-01993-KOB
Appeal from the United States District Court
for the Northern District of Alabama
Before: TJOFLAT, NEWSOM, and
GRANT, Circuit Judges.
PER CURIAM:
Ashley Page appeals the district court’s order
dismissing her claims against the University of
Alabama at Birmingham’s Board of Trustees and

App.2a
several UAB employees based on her removal from
UAB’s School of Nursing Anesthesia. Specifically,
Page sued the Board of Trustees and UAB employees
Todd L. Hicks, Susan P. McMullan, and Peter M. Tofani
under 42 U.S.C. § 1983 for violating her proceduraland substantive-due-process rights to continued
enrollment in the Nursing Anesthesia program, seeking
both monetary damages for her time enrolled and reinstatement in the program. After careful review, we
affirm the district court’s dismissal of all claims.
I
Ashley Page enrolled in the University of Alabama
at Birmingham’s Nursing Anesthesia Program in
August 2014. In August 2016, as part of the curriculum,
Page began a clinical rotation at Baptist South Hospital
in Montgomery, Alabama. A few weeks later, she
received a call from UAB’s clinical coordinator notifying
her of a required meeting with Appellee Susan P.
McMullan, the Nursing Anesthesia Program Director.
At the meeting, McMullan showed Page three
negative clinical evaluations from staff at Baptist
South Hospital, which McMullan had received from
Professor Todd L. Hicks.1 McMullan then informed
Page that she would be receiving a failing grade in
1 Throughout the proceedings, Page has insisted that one of the
three evaluations concerned another student in the program.
Taking the facts alleged in the light most favorable to Page as
the non-moving party, this opinion considers only the two undisputed evaluations. See Hill v. White, 321 F.3d 1334, 1335 (11th
Cir. 2003) (per curiam) (explaining that, in reviewing a motion
to dismiss, this Court “accept[s] the allegations in the complaint
as true and constru[es] them in the light most favorable to the
[non-moving party]”).

App.3a
her clinical course and that she would be dismissed
from the Nursing Anesthesia program immediately.
At the meeting’s end, Appellee Peter M. Tofani, Dean
of Student Affairs, provided Page with his contact
information in case she decided to appeal the dismissal
decision.
Following the meeting, some confusion ensued
about whether Page’s dismissal was effective immediately or would instead take effect at the end of the
semester. After receiving copies of the evaluations
leading to her dismissal, Page met with Tofani and
John Updegraff, Director of Student Affairs. Tofani
informed Page at that time that her dismissal would
be effective at the semester’s end and that she would
not be reinstated. Page then appealed the decision to
the Dean of the Nursing School. The Dean responded
by scheduling an Advisory Committee Hearing Panel
to review Page’s appeal. At the hearing, Page had
two lawyers present and questioned witnesses, although
several UAB employee witnesses whom Page wished to
question were not present. A few weeks after the
hearing, the panel upheld Page’s dismissal.
Page sued the UAB Board of Trustees, along with
McMullan, Hicks, and Tofani, for due process violations,
requesting monetary damages and reinstatement as a
student in the Nursing Anesthesia program.2 The
2 Page also brought state-law negligence claims against each individual defendant. But after dismissing each of Page’s federal
claims, the district court properly exercised its discretion to
dismiss without prejudice her accompanying state-law claims.
See Raney v. Allstate Ins., Co., 370 F.3d 1086, 1088-89 (11th Cir.
2004) (encouraging district courts to dismiss state claims when
no federal claims remain). Page’s state-law claims are not before
us on appeal.

App.4a
defendants moved to dismiss all claims. The district
court dismissed the claims against the Board of
Trustees on the basis that it was entitled to Eleventh
Amendment immunity. The court also dismissed all
claims against the individual defendants, finding
first that all defendants were entitled to Eleventh
Amendment immunity for the monetary-damages
claims against them in their official capacities, and
second, that Page had failed to state a claim upon
which relief could be granted.
II
Page asserts that each defendant violated her
procedural-and substantive-due-process rights by
dismissing her without following the Nursing School’s
established procedures.3 We will first consider Page’s
claims against the Board of Trustees, followed by her
claims against the individual UAB employees. In so
doing, we will review de novo the district court’s dismissal of claims both for Eleventh Amendment
immunity, see Garrett v. University of Alabama at
Birmingham Board of Trustees, 344 F.3d 1288, 1290
(11th Cir. 2003) (per curiam), and for failure to state
a claim upon which relief can be granted, Douglas v.
United States, 814 F.3d 1268, 1273-75 (11th Cir. 2016).
A
Page sued the Board for both monetary and
injunctive relief—specifically, for her lost tuition and
3 Page’s complaint vaguely references “due process”; however,
because she sought both monetary and injunctive relief the district court construed the complaint as alleging both substantiveand procedural-due-process claims and analyzed them as such.
We do the same here.

App.5a
for reinstatement in the Nursing Anesthesia program.
She is entitled to neither, but for two different
reasons.
First, the Board is immune from liability for
monetary damages. Under the Eleventh Amendment,
“the ‘Judicial power of the United States shall not be
construed to extend to any suit . . . commenced or
prosecuted against one of the . . . States’ by citizens
of another State, U.S. Const., Amdt. 11, and (as interpreted) by its own citizens.” Lapides v. Bd. of Regents
of Univ. Sys. of Ga., 535 U.S. 613, 618 (2002) (citing
Hans v. Louisiana, 134 U.S. 1 (1890)). That being
said, a State remains free to waive its immunity from
suit in a federal court. And in Lapides, the Supreme
Court held that a State necessarily waives its immunity
from suit when it removes a proceeding to federal
court. 535 U.S. at 618-19. Relevant to this case, state
universities, such as UAB, are “arms of the state” and
thus are entitled to Eleventh Amendment immunity.
See Harden v. Adams, 760 F.2d 1158, 1163 (11th Cir.
1985) (holding that the Eleventh Amendment bars suit
under 42 U.S.C. § 1983 against Troy State University).
Page contends that the Board waived its Eleventh
Amendment immunity from liability by removing the
case to federal court. But Page misunderstands Lapides,
which held that a State’s removal to federal court
waives “its immunity from a federal forum”—that is,
its immunity from suit, not from liability. Stroud v.
McIntoch, 722 F.3d 1294, 1302 (11th Cir. 2013). We
have clarified that “nothing in Lapides suggests that
a state waives any defense it would have enjoyed in
state court—including immunity from liability for
particular claims.” Id. Here, no one contests that the

App.6a
Board waived its Eleventh Amendment immunity from
suit by removing the case to federal court. But under
this Court’s precedent interpreting Lapides, this
removal did not affect the Board’s immunity from
liability for monetary damages.
Page also seeks relief from the Board in the form
of reinstatement as a student at UAB. Generally,
“requests for reinstatement”—like the one Page
brings—“constitute prospective injunctive relief that
fall within the scope of the Ex parte Young exception
and, thus, are not barred by the Eleventh Amendment.”
Lane v. Cent. Ala. Cmty. Coll., 772 F.3d 1349, 1351
(11th Cir. 2014) (quotation marks omitted). This exception, however, applies only to state officers—
“suits against the States and their agencies, . . . are
barred regardless of the relief sought.” Puerto Rico
Aqueduct & Sewer Auth. v. Metcalf & Eddy, Inc., 506
U.S. 139, 146 (1993). Because the Board is an “arm of
the state” itself—and not an individual officer—Page’s
request for injunctive relief against the Board fails
too. See, e.g., Harden, 760 F.2d at 1163.
B
1
Next, we consider Page’s claims against the individual defendants.4 Looking first to her procedural4 Page’s monetary-damages claims against the individual
defendants in their official capacities are barred for the same
reason that her monetary-damages claims against the Boardas-an-arm-of-the-State are barred. See Cross v. State of Ala.,
State Dep’t of Mental Health & Mental Retardation, 49 F.3d
1490, 1503 (11th Cir. 1995) (“Official capacity actions seeking
damages are deemed to be against the entity of which the officer
is an agent.”) (citations omitted).

App.7a
due-process claim, the parties agree that “a § 1983
claim alleging the denial of procedural due process
requires proof of three elements: (1) deprivation of a
constitutionally-protected liberty or property interest;
(2) state action; and (3) constitutionally-inadequate
process.” Cook v. Randolph County, 573 F.3d 1143,
1148-49 (11th Cir. 2009) (quoting Grayden v. Rhodes,
345 F.3d 1225, 1232 (11th Cir. 2003)). The Supreme
Court has not addressed whether a graduate student
has a constitutionally-protected liberty or property
interest in her continued enrollment at a public university, although the Court presumed without deciding
the existence of such a right in Board of Curators of
the University of Missouri v. Horowitz, 435 U.S. 78,
84-85 (1978). And while this Court has held that,
outside of a state university’s proper application of its
own disciplinary procedures for behavioral misconduct, a student has a “legitimate claim of entitlement
to remain enrolled,” Barnes v. Zaccari, 669 F.3d 1295,
1304 (11th Cir. 2012), we have not extended that
holding from the disciplinary to the academic context.
Even assuming, though, that Page held a constitutionally-protected property interest in her enrollment at UAB, we cannot say, on these facts, that she
has alleged constitutionally-inadequate process.5 To
start, the Supreme Court has rejected the contention
that, in an academic-dismissal case, a school’s failure
to follow its own procedures in and of itself amounts
to a due process violation. See Horowitz, 435 U.S. at
92 n.8. This Court has also made clear that the standards guiding academic dismissals are not as “strict”
5 The second prong—the presence of state action—is undisputed.

App.8a
as those governing disciplinary actions. Haberle v.
Univ. of Ala., 803 F.2d 1536, 1539 (11th Cir. 1986).
Indeed, under our precedent, “[f]ormal hearings are
not required in academic dismissals”— instead, “the
decision-making process need only be ‘careful and
deliberate.’” Id. (quoting Horowitz, 435 U.S. at 85).
Our case law also explains that even when a state’s
pre-deprivation process is less than perfect, it is “only
when the state refuses to provide a process sufficient
to remedy the procedural deprivation [that] a constitutional violation actionable under section 1983
arise[s].” McKinney v. Pate, 20 F.3d 1550, 1557 (11th
Cir. 1994) (en banc) (emphasis added).
The question for our purposes, then, becomes
whether Page has alleged a lack of “careful and
deliberate” process surrounding her dismissal, rising
to the level of constitutionally-inadequate process.
We think not. Although Page points to the somewhat
confused and confusing initial communications surrounding her dismissal as proof of improper process, it is
clear from the facts alleged in her complaint that
any less-than-perfect pre-deprivation process was
remedied. See McKinney, 20 F.3d at 1557. First,
immediately following Page’s initial meeting with
McMullan, Assistant Dean Tofani provided Page with
his contact information in order to facilitate any
appeal she might wish to pursue. Next, Page both wrote
to and personally met with several levels of Nursing
School staff and administrators to contest the decision,
including the Program Director and the Dean of the
Nursing School. Finally, UAB provided Page with more
than what is constitutionally required for academic
dismissals: a formal panel hearing at which she was
able to appeal the decision, present and cross-examine

App.9a
witnesses, and plead her case for several hours. See
Haberle, 803 F.2d at 1539 (stating that “careful and
deliberate” process rather than a “formal hearing” is
all that is required in an academic dismissal).
Because Page’s complaint makes clear that UAB
went above and beyond the level of “careful and
deliberate” consideration required to ensure a constitutionally-adequate process in the academic-dismissal context, and that any notification deficiencies
were remedied through plentiful post-deprivation
processes, she has failed to state a procedural-dueprocess claim against McMullan, Hicks, or Tofani in
either their individual or official capacities.
2
Page also claims that the individual defendants
violated her substantive-due-process rights by dismissing her “intentionally, willfully, negligently,
maliciously, with deliberate indifference, and/or with
a reckless disregard for the natural and probable
consequences of their act.” This claim also fails. In
Regents of University of Michigan v. Ewing, the
Supreme Court assumed without deciding that a
medical student had a constitutionally-protected, substantive-due-process right in his continued enrollment in medical school. 474 U.S. 214, 222-23 (1985).
In evaluating the medical student’s claim, the Court
cautioned that “[w]hen judges are asked to review the
substance of a genuinely academic decision, such as
this one, they should show great respect for the
faculty’s professional judgment.” Id. at 225. Judges
“[p]lainly” should not “override” faculty decisions concerning academic dismissals, the Court continued,
unless a decision represents “such a substantial

App.10a
departure from accepted academic norms as to
demonstrate that the person or committee responsible
did not actually exercise professional judgment.” Id.
This is because an academic-dismissal decision requires
“an expert evaluation of cumulative information” that
is “not readily adapted to the procedural tools of judicial or administrative decision-making.” Id. at 226
(quoting Horowitz, 435 U.S. at 90).
Here, nothing in Page’s complaint indicates that
the individual defendants “substantial[ly] depart[ed]”
from academic norms in a manner that would require
judicial “override.” Ewing, 474 U.S. at 225. Clinical
supervisors evaluated Page’s nursing and found it to
be “unsafe,” the negative clinical evaluations resulted
in a failing grade, Page was dismissed for failing her
clinicals, and her appeal was thoroughly considered.
In the absence of any allegations tending to show
that UAB faculty members abdicated their responsibility to exercise professional judgment, Page fails to
state a substantive-due-process claim against McMullan, Hicks, or Tofani in either their individual or
official capacities.
III
In sum, the district court properly dismissed all
claims. The Board of Trustees of the University of
Alabama at Birmingham is entitled to Eleventh
Amendment immunity. The individual defendants
acting in their official capacities also are entitled to
Eleventh Amendment immunity as to the monetary
damages, and Page has otherwise failed to state a
procedural-or substantive-due-process claim against
them in their individual or official capacities.
AFFIRMED.

App.11a
MEMORANDUM OPINION OF THE
DISTRICT COURT OF ALABAMA
(FEBRUARY 12, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
________________________
ASHLEY WILCOX PAGE,

Plaintiff,
v.
TODD L. HICKS, NNA, CRNA; ET AL.,

Defendants.

________________________
2:16-CV-01993-KOB

Before: Karon Owen BOWDRE,
Chief United States District Judge.
Ashley Wilcox Page, a former student in the
University of Alabama at Birmingham’s (“UAB”) School
of Nursing Anesthesia Program, filed suit against
Todd Hicks, Susan McMullan, Peter Tofani, and the
Board of Trustees of the University of Alabama, alleging
that they wrongfully dismissed her from the Program.
(Doc. 25). In Counts 1 and 2, Ms. Page raises due
process claims against the Board of Trustees and all
three individual defendants in their official and individual capacities; in Count 3, Ms. Page asserts a negligence claim against Mr. Hicks and Ms. McMullan in

App.12a
their official and individual capacities; in Count 4,
Ms. Page presents a negligence claim against Ms.
McMullan in her official and individual capacities;
and in Count 5, Ms. Page pleads a negligence claim
against Mr. Tofani in his official and individual
capacities. (Id.). In the federal due process claims, she
seeks monetary damages and injunctive relief, and in
the state law negligence claims, she seeks only
monetary damages.
Defendants move to dismiss the amended complaint, asserting that they are entitled to Eleventh
Amendment immunity, sovereign immunity, state agent
immunity, and qualified immunity, and in the alternative, that the amended complaint fails to state a
federal claim. (Doc. 26). The court WILL GRANT
Defendants’ motion to dismiss and WILL DISMISS the
amended complaint.
The court finds that the Board of Trustees is
entitled to Eleventh Amendment immunity, so the court
WILL DISMISS WITHOUT PREJUDICE the Board of
Trustees as a defendant.
The court finds that the individual defendants in
their official capacities are entitled to Eleventh
Amendment immunity from the federal claims seeking
monetary damages, but that under the Ex parte Young
doctrine, they are not entitled to Eleventh Amendment
immunity from the federal claims seeking injunctive
relief. Although the court finds that the individual
defendants are not entitled to Eleventh Amendment
immunity from the federal claims seeking injunctive
relief, the court finds that Ms. Page fails to state a
procedural or substantive due process claim. As a
result, the court WILL DISMISS WITHOUT PREJUDICE the federal claims raised against the individ-

App.13a
ual defendants in their official capacities seeking
monetary damages, and WILL DISMISS WITH PREJUDICE the federal claims raised against the individual defendants in their official capacities seeking
injunctive relief.
The court also finds that the individual defendants
are entitled to qualified immunity from the federal
claims seeking monetary damages from them in their
individual capacities because Ms. Page’s allegations
fails to establish a constitutional violation. The court
WILL DISMISS WITH PREJUDICE the federal claims
raised against the individual defendants in their
individual capacities.
Finally, in light of the court’s dismissal of all of
the federal claims, the court declines to exercise supplemental jurisdiction over the state law claims.
The court WILL DISMISS WITHOUT PREJUDICE
Counts 3, 4, and 5 for lack of jurisdiction.
I.

Background

At the motion to dismiss stage, the court must
accept as true the allegations in the complaint and
construe them in the light most favorable to the
plaintiff. Butler v. Sheriff of Palm Beach Cty., 685
F.3d 1261, 1265 (11th Cir. 2012); Stalley v. Orlando
Reg’l Healthcare Sys., 524 F.3d 1229, 1232-33 (11th
Cir. 2008). Taken in that light, in August 2014, Ms.
Page enrolled as a student at the UAB’s School of
Nursing Anesthesia Program. (Doc. 25 at 3). In August
2016, she began a clinical rotation at Baptist South
Hospital in Montgomery, Alabama. (Id.).
Apparently, between August 18 and August 25,
2016, during Ms. Page’s clinical rotation, three evalu-

App.14a
ators filled out negative evaluations about her performance. (Id. at 3, 9). Ms. Page contends that one of
the evaluations was not actually about her, but about
a different nursing student. (Id. at 5, 10). Assistant
Professor Todd Hicks received the three negative
clinical evaluations about Ms. Page and he sent them
to the Director of the Nurse Anesthesia Program,
Susan McMullan. (See id. at 4-5, 9). On August 28,
2016, Ms. McMullan emailed Ms. Page instructing
her to attend a meeting with several UAB employees,
including herself and the Assistant Dean for Student
Affairs, Peter Tofani. (See id. at 6).
The meeting took place on August 29, 2016. (Id. at
5). At the meeting, Ms. McMullan gave Ms. Page the
three evaluations, told her that she “would not be
allowed to continue in the Program as an unsafe nurse,”
and informed her that she “was dismissed from the
UAB School of Nursing Anesthesia program effective
immediately.” (Id. at 5-6). According to Ms. Page, Ms.
McMullan made the “unilateral decision” to dismiss
her. (Id. at 12). Mr. Tofani gave Ms. Page a business
card and asked her to call him when she was ready to
learn about her options to appeal the dismissal. (Id.
at 5-6).
In September 2016, Ms. Page attended a meeting
with Mr. Tofani and another UAB employee. (Id. at
7). At that meeting, Mr. Tofani told Ms. Page that
she had been dismissed from the program for safety
reasons, but also stated that she was still a student,
she had received a failing grade, and she would be
dismissed at the end of the semester. (Id. at 7-8). He
told her that she would not be reinstated. (Id.).
For several months after the August meeting, Ms.
Page continued to correspond and meet with UAB

App.15a
administrators about her dismissal. (Id. at 8-13). Different administrators told Ms. Page that she had or
had not yet been dismissed from school, and that she
could follow the academic misconduct grievance procedure or the student academic complaint process
described in the School of Nursing Handbook. (Id. at
8-10). On December 7, 2016, the School convened a
grievance hearing panel to consider Ms. Page’s challenge to her dismissal. (Id. at 12). Ms. Page’s attorney was present, but not allowed to speak; most of
the witnesses that Ms. Page requested did not attend;
and Ms. Page was not allowed to present testimony
from those missing witnesses. (Id. at 12-13). On
December 19, 2016, the Dean of the School of Nursing
sent Ms. Page a letter stating that she was “dismissed
from the Nurse Anesthesia specialty track of the MSN
program.” (Id. at 13-14).
Ms. Page filed suit against Mr. Hicks, Ms. McMullan, Mr. Tofani, and the Board of Trustees of the
University of Alabama,1 asserting the following
federal counts: (1) Defendants deprived her of due
process, in violation of the Fourteenth Amendment to
the U.S. Constitution, by dismissing her without
following School of Nursing’s requirements for dismissing a student (“Count 1”); and (2) Defendants
deprived her of due process, in violation of 42 U.S.C.
§ 1983, by dismissing her intentionally, willfully,
negligently, maliciously, with deliberate indifference,
and/or with a reckless disregard for the natural and
1 Ms. Page’s initial complaint incorrectly named as a defendant
the University of Alabama at Birmingham, but after the case
was removed to federal court, the court substituted the Board of
Trustees of the University of Alabama as the correct defendant.
(See Doc. 17).

App.16a
probable consequences of their act (“Count 2”). (Doc.
25 at 14-17). For those counts, she seeks monetary
damages and injunctive relief in the form of reinstatement as a student. (Id.).
Ms. Page also asserts the following state law
negligence claims against the individual defendants:
(1) negligence by Mr. Hicks and Ms. McMullan for using
a different student’s clinical evaluation as grounds to
dismiss Ms. Page from the school (“Count 3”); (2) negligence by Ms. McMullan for failing to follow the
School of Nursing’s procedures for dismissing a student
(“Count 4”); and (3) negligence by Mr. Tofani for failing
to follow the School of Nursing’s procedures for
dismissing a student (“Count 5”). (Id. at 14-20). For
those counts, she seeks only monetary damages.2 (Id.
at 20-21).
Ms. Page initially filed suit in state court. (Doc.
1-1). Defendants removed the case to federal court,
(doc. 1), and then moved to dismiss the amended complaint for lack of jurisdiction and failure to state a
claim, (doc. 26).
II.

Discussion

Defendants move to dismiss the amended complaint on various immunity grounds under Federal
Rule of Civil Procedure 12(b)(1). (Doc. 26 at 7-20, 262 In her response to the motion to dismiss, Ms. Page states that
she also seeks declaratory relief. (Doc. 28 at 22). The amended
complaint, however, does not request declaratory relief in those
counts. (See Doc. 25 at 20-21). Ms. Page may not amend her
complaint via briefing on a motion to dismiss. Cf. GeorgiaCarry.Org v. Georgia, 687 F.3d 1244, 1258 n.26 (11th Cir. 2012)
(“[A] plaintiff may not amend the complaint through argument
at the summary judgment phase of proceedings.”).

App.17a
30). In the alternative, they move, under Rule 12(b)(6),
to dismiss Counts 1 and 2—the federal counts—for
failure to state a claim. (Id. at 20-26).
Rule 12(b)(1) permits a district court to dismiss
for “lack of subject-matter jurisdiction.” Fed. R. Civ.
P. 12(b)(1). Rule 12(b)(6) permits a district court to
dismiss “for failure to state a claim upon which relief
can be granted.” Fed. R. Civ. P. 12(b)(6).
Before addressing the motion to dismiss, the court
must clarify some preliminary matters about the
amended complaint. First, the two federal counts,
Counts 1 and 2, each refer vaguely to “due process”
violations. (See Doc. 25 at 14-17). Such a vague
assertion of “due process” violations does not state a
recognizable cause of action. However, because Ms.
Page seeks both monetary damages and equitable relief
in the form of reinstatement, the court construes her
amended complaint in the light most favorable to her,
and assumes that she raises both procedural and
substantive due process claims. See McKinney v. Pate,
20 F.3d 1550, 1557 (11th Cir. 1994) (en banc) (“In
substantive due process cases, the claimant seeks
compensatory damages for the value of the deprived
right. In procedural due process cases, however, although the claimant may seek compensatory damages,
the primary relief sought is equitable. . . . ”).
The court construes Count 1 to raise a procedural
due process claim because the claim is based on
Defendants’ alleged failure to give Ms. Page proper
notice and an opportunity to be heard before dismissing
her from the Program. (See id. at 15). The court construes Count 2 to raise a substantive due process
claim because the claim is based on Defendants’ actions
that Ms. Page alleges were intentional, willful, negli-

App.18a
gent, malicious, deliberately indifferent, and taken
with “reckless disregard for the natural and probable
consequences of their act.” (See id. at 16).
In addition, Count 1 appears to be a freestanding
due process claim, while Count 2 is a § 1983 process
claim. (Id. at 14, 16). But “[w]here a statute provides
an adequate remedy, [the court] will not imply a judicially created cause of action directly under the Constitution.” GeorgiaCarry.Org v. Georgia, 687 F.3d
1244, 1254 n.15 (11th Cir. 2012). Section 1983 provides
a cause of action for “the deprivation of any rights,
privileges, or immunities secured by the Constitution
and laws.” 42 U.S.C. § 1983. As a result, the court
“will not imply a judicially created” freestanding due
process claim, but will instead construe Count 1 as a
§ 1983 due process claim. See Anderson v. Edwards,
505 F. Supp. 1043, 1045 (S.D. Ala. 1981) (“[N]o claim
exists under the first and fourteenth amendments to
the United States Constitution because no implied
cause of action exists under those amendments. Instead,
where rights granted by the first or fourteenth
amendments are violated a plaintiff must vindicate
those rights through 42 U.S.C. § 1983.”).
Finally, the amended complaint does not indicate whether the claims are against the individual
defendants in their official or individual capacities.
(See generally Doc. 25 at 14-20). Ms. Page states in
her response to the motion to dismiss that she intended
for each count to be against the individual defendants
in both capacities. (Doc. 28 at 21). “In many cases,
the complaint will not clearly specify whether officials
are sued personally, in their official capacity, or both.
The course of proceedings in such cases typically will
indicate the nature of the liability sought to be im-

App.19a
posed.” Kentucky v. Graham, 473 U.S. 159, 167 n.14
(1985) (quotation marks omitted). The amended complaint seeks monetary damages for all of the claims,
and also seeks injunctive relief in the form of reinstatement as a student for the federal claims. (Doc.
25 at 14-21).
Assuming that no immunity bars any of the
claims, Ms. Page could obtain the injunctive relief
she seeks from the individual defendants in their
official capacities, but she could not obtain the
injunctive relief she seeks from the individual
defendants in their individual capacities. See Ingle v.
Adkins, ___ So.3d ___, 2017 WL 5185288, at *2 (Ala.
2017) (“[A] suit for injunctive relief against a State
official in his or her individual capacity would be
meaningless. This is so, because State officials act for
and represent the State only in their official
capacities.”) (quoting Ex parte Dickson, 46 So.3d 468,
474 (Ala. 2010)) (emphasis in original). As a result, the
court will not construe Counts 1 and 2—the only
counts in which Ms. Page seeks injunctive relief—to
assert claims for injunctive relief against the individual defendants in their individual capacities.
In summary, the court construes the amended
complaint to raise the following claims against the
following defendants:


Counts 1 and 2 (§ 1983 procedural and substantive due process claims): seeking monetary
damages and reinstatement from the Board of
Trustees; seeking monetary damages and
reinstatement from the individual defendants
in their official capacities; and seeking only
monetary damages from the individual defendants in their individual capacities

App.20a


Count 3 (negligence claim): seeking monetary
damages from Mr. Hicks and Ms. McMullan in
their official and individual capacities



Count 4 (negligence claim): seeking monetary
damages from Ms. McMullan in her official and
individual capacities



Count 5 (negligence claim): seeking monetary
damages from Mr. Tofani in his official and
individual capacities

A. Jurisdiction
“A defendant can move to dismiss a complaint
under Rule 12(b)(1) for lack of subject matter jurisdiction by either facial or factual attack.” Stalley, 524
F.3d at 1232. In this case, Defendants make only a
facial attack on the court’s jurisdiction. “A facial
attack on the complaint requires the court merely to
look and see if the plaintiff has sufficiently alleged a
basis of subject matter jurisdiction. . . . ” Id. at 123233 (quoting McElmurray v. Consol. Gov’t of AugustaRichmond Cty., 501 F.3d 1244, 1251 (11th Cir. 2007)
(quotation, citation, and alterations omitted)).
Defendants contend they are entitled to various
forms of immunity from various combinations of the
claims. As for Ms. Page’s federal claims, all Defendants
contend they are entitled to Eleventh Amendment
immunity, and the individual defendants contend they
are entitled to qualified immunity from the claims
brought against them in their individual capacities.
(Doc. 26 at 7-19). As for Ms. Page’s state law claims,
the individual defendants contend they are entitled
to state sovereign immunity from the claims against
them in their official capacities, and state agent

App.21a
immunity from the claims against them in their individual capacities. (Id. at 26-30). But because the court
concludes that it must dismiss the federal claims in
part for lack of jurisdiction and in part for failure to
state a claim, the court will not address Defendants’
arguments about the various state law immunities.
1. Federal Claims
a. Eleventh Amendment Immunity
“The Eleventh Amendment provides that the
‘Judicial power of the United States shall not be
construed to extend to any suit . . . commenced or
prosecuted against one of the . . . States’ by citizens
of another State, U.S. Const., Amdt. 11, and (as interpreted) by its own citizens.” Lapides v. Bd. of Regents
of Univ. Sys. of Ga., 535 U.S. 613, 618 (2002). The
amended complaint raises two federal due process
claims against each defendant. (Doc. 25 at 14-17).
Defendants contend that under the Eleventh Amendment, the court lacks jurisdiction over those counts.
(Doc. 26 at 7-11). Ms. Page responds that Defendants
waived their Eleventh Amendment immunity defense
by removing the case to federal court. (Doc. 28 at 1016). The court agrees that Defendants waived their
Eleventh Amendment immunity from suit in this federal forum, but concludes that they did not waive
their immunity from liability.
The Supreme Court has held that “the State’s act
of removing a lawsuit from state court to federal
court waives [Eleventh Amendment] immunity.”
Lapides, 535 U.S. at 616. In Lapides, a plaintiff sued
officials of the State of Georgia in state court. Id.
Because the State had statutorily waived sovereign

App.22a
immunity from state law suits in state court, it removed
the case to federal court and argued that it was entitled
to Eleventh Amendment immunity from suit. Id. The
Supreme Court rejected that contention, in part because
“[t]o adopt the State’s Eleventh Amendment position
would permit States to achieve unfair tactical advantages.” Id. at 621.
The Court in Lapides limited its holding to situations in which the lawsuit does not raise a valid
federal claim and the State has waived sovereign
immunity from state law suits in state court. Id. at
616-18. But “[n]otwithstanding the express limitation
on its holding, the Court’s . . . reasoning was in many
ways quite broad.” Contour Spa at the Hard Rock, Inc.
v. Seminole Tribe of Florida, 692 F.3d 1200, 1205
(11th Cir. 2012). “[U]nder Lapides’ reasoning, a state
waives its immunity from a federal forum when it
removes a case, which voluntarily invokes the jurisdiction of that federal forum.” Stroud v. McIntosh, 722
F.3d 1294, 1302 (11th Cir. 2013) (emphasis added).
Under Lapides and Stroud, Defendants waived any
objection to this federal forum by removing the case
from state court.
But the waiver of Eleventh Amendment forum
immunity does not end the inquiry, because “nothing
in Lapides suggests that a state waives any defense
it would have enjoyed in state court—including
immunity from liability for particular claims. Lapides
specifies that it is addressing only immunity to a federal forum.” Stroud, 722 F.3d at 1302; see also Alden
v. Maine, 527 U.S. 706, 713 (1999) (“[T]he sovereign
immunity of the States neither derives from, nor is
limited by, the terms of the Eleventh Amendment.”).
In other words, this court must determine whether

App.23a
some other form of immunity would bar Ms. Page’s
amended complaint if the case had never been
removed—if a state court, instead of a federal court,
were deciding the motion to dismiss on immunity
grounds.
Under Alabama law, Article I, § 14 of the Alabama
Constitution protects the State from liability for
state law claims brought against it, and the Eleventh
Amendment to the United States Constitution protects
the State from liability for federal claims brought
against it. See Ala. State Univ. v. Danley, 212 So.3d
112, 124 (Ala. 2016) (“[Section] 14 provides absolute
immunity from suit—and thus liability—for monetary
damages based on state-law claims. . . . ”); id. at 133
(“[Section] 14 provides [the Alabama State University
and individual members of its Board of Trustees] no
immunity from Danley’s federal-law claims. Rather,
for [those defendants], immunity for liability as to
Danley’s federal-law claims derives from the Eleventh
Amendment to the United States Constitution.”)
(citations omitted).
As discussed above, Defendants’ invocation of
this federal forum waives Eleventh Amendment forum
immunity, but it does not necessarily waive Defendants’
immunity from liability. See Stroud, 722 F.3d at 1301
(“The Supreme Court has repeatedly recognized that
sovereign immunity is a flexible defense with multiple
aspects that states can independently relinquish
without affecting others.”); id. (“[A] state, if it chooses,
can retain immunity from liability for a particular
claim even if it waives its immunity from suit in federal courts.”). In this case, the State asserts the same
defense it could have asserted in state court. See, e.g.,
Danley, 212 So.3d at 133 (indicating that Eleventh

App.24a
Amendment immunity is an available defense to
liability in Alabama state court). As a result, the
court must determine whether the Board of Trustees
and the individual defendants in their official capacities
are entitled to Eleventh Amendment immunity from
liability on the two federal claims against them.3
The first question the court faces is whether the
Board of Trustees and the individual defendants in
their official capacities are considered the State for
purposes of Eleventh Amendment immunity. The court
finds that they are. “The Eleventh Circuit has determined that state universities in Alabama, as arms of
the state, are entitled to Eleventh Amendment immunity.” Harris v. Bd. of Trs. Univ. of Ala., 846 F. Supp.
2d 1223, 1233 (N.D. Ala. 2012) (citing Harden v.
Adams, 760 F.2d 1158, 1163 (11th Cir. 1985)). And
“agents and instrumentalities of the State” are also
arms of the State. Manders v. Lee, 338 F.3d 1304,
3 The individual defendants in their individual capacities are
not entitled to Eleventh Amendment immunity because, if Ms.
Page prevails against them, they, not the State, would be liable.
See Hobbs v. Roberts, 999 F.2d 1526, 1528 (11th Cir. 1993)
(“The Eleventh Amendment protects no personal assets in ‘individual’ or ‘personal’ capacity suits in federal court.”); Jackson v.
Ga. Dep’t of Transp., 16 F.3d 1573, 1577 (11th Cir. 1994) (“The
essence of an individual capacity suit is that the plaintiff is
seeking to recover from the individual defendant who is personally
liable for the judgment.”). That conclusion stands even if the
State of Alabama provides insurance coverage for judgments
against state officials sued in their individual capacities. See
Jackson, 16 F.3d at 1578 (“We conclude that the existence of a
voluntarily established liability trust fund does not make the
state the real party in interest in this action and that the trust
fund does not extend the state’s Eleventh Amendment immunity
to its employees sued in their individual capacity.”) (footnote
omitted).

App.25a
1308 (11th Cir. 2003) (en banc); see also Cross v.

State of Ala., State Dep’t of Mental Health & Mental
Retardation, 49 F.3d 1490, 1503 (11th Cir. 1995)

(“Official capacity actions seeking damages are deemed
to be against the entity of which the officer is an
agent.”).

The next question is whether an exception to
Eleventh Amendment immunity prevents the State’s
invocation of immunity. Three exceptions to Eleventh
Amendment immunity exist. First, Congress may
abrogate a State’s immunity. Cross, 49 F.3d at 1502.
Second, the State may consent to be sued or waive its
immunity. Id. And third, under the Ex parte Young
doctrine, “official-capacity suits against state officials
are permissible . . . when the plaintiff seeks ‘prospective
equitable relief to end continuing violations of federal
law.” Lane v. Central Ala. Comm. Coll., 772 F.3d 1349,
1351 (11th Cir. 2014) (citation altered) (emphases in
original) (quoting Summit Med. Assocs. v. Pryor, 180
F.3d 1326, 1336 (11th Cir. 1999)); see also Ex parte
Young, 209 U.S. 123 (1908).
“Congress has not abrogated Eleventh Amendment
immunity in Section 1983 cases,” Quern v. Jordan,
440 U.S. 332, 338 (1979), and the State of Alabama
has not waived its immunity to liability. See Ala.
Const. art. I, § 14 (“[T]he State of Alabama shall never
be made a defendant in any court of law or equity.”).
Thus, neither of the first two exceptions applies. Those
are the only exceptions that permit claims for monetary
damages, so the Eleventh Amendment bars Ms. Page’s
federal claims for monetary damages from the State,
i.e., from the Board of Trustees and the individual
defendants in their official capacities.

App.26a
But Ms. Page also seeks injunctive relief from
both the Board of Trustees and the individual
defendants in their official capacities, in the form of
reinstatement as a student at UAB. (See Doc. 25 at
14-17). The Ex parte Young doctrine permits lawsuits
against state officials “when the plaintiff seeks prospective equitable relief to end continuing violations of
federal law.” Lane, 772 F.3d at 1351 (quotation marks
omitted) (emphases in original).
Ms. Page’s request for injunctive relief from the
Board of Trustees—an arm of the State—must fail
because the Ex parte Young exception “has no application in suits against the States and their agencies,
which are barred regardless of the relief sought.”

Puerto Rico Aqueduct & Sewer Auth. v. Metcalf &
Eddy, Inc., 506 U.S. 139, 146 (1993). But her request

for injunctive relief from the individual defendants in
their official capacities falls within the Ex parte
Young exception.4 The Eleventh Circuit has held that
“requests for reinstatement constitute prospective
injunctive relief that fall within the scope of the Ex
parte Young exception and, thus, are not barred by
the Eleventh Amendment.” Lane, 772 F.3d at 1351.

In summary, the Eleventh Amendment bars
Counts 1 and 2—the federal claims—against the Board
of Trustees. Because Ms. Page raises no other claims
against the Board of Trustees, the court WILL
4 In their first motion to dismiss, Defendants argued that the
individual defendants lack the authority to grant the injunctive
relief Ms. Page seeks. (Doc. 14 at 6 n.3). The court granted that
motion on other grounds. (Doc. 20). Defendants do not repeat
the lack-of-authority argument in their current motion to
dismiss, so the court does not address it.

App.27a
DISMISS WITHOUT PREJUDICE the Board of
Trustees for lack of jurisdiction.
The Eleventh Amendment also bars Counts 1 and
2 against the individual defendants to the extent
that those counts seek monetary damages from them
in their official capacities. The court WILL DISMISS
WITHOUT PREJUDICE Counts 1 and 2 against the
individual defendants in their official capacities to
the extent those counts seek monetary damages.
But under the Ex parte Young doctrine, the
Eleventh Amendment does not bar Ms. Page’s requests
for injunctive relief from the individual defendants in
their official capacities. Defendants contend, in the
alternative, that Counts 1 and 2 fail to state a claim.
The court will address that argument in the next section, which also addresses whether the individual
defendants are entitled to qualified immunity from
the federal claims brought against them in their individual capacities for monetary damages.
b. Qualified Immunity
The individual defendants in their individual
capacities contend that they are entitled to qualified
immunity as to Counts 1 and 2—the federal claims—
insofar as those counts seek monetary damages. (Doc.
26 at 11-19).
Qualified immunity protects government officials
performing discretionary functions from suit in
their individual capacities unless the official violates
“clearly established statutory or constitutional rights
of which a reasonable person would have known.” Hope
v. Pelzer, 536 U.S. 730, 739 (2002) (quoting Harlow
v. Fitzgerald, 457 U.S. 800, 818 (1982)). “The purpose

App.28a
of this immunity is to allow government officials
to carry out their discretionary duties without the
fear of personal liability or harassing litigation, protecting from suit all but the plainly incompetent or
one who is knowingly violating the federal law. . . . ”
Lee v. Ferraro, 284 F.3d 1188, 1194 (11th Cir. 2002)
(citation and quotation marks omitted). The court must
“compare the acts of each defendant to analogous
case law to determine whether each defendant has
violated a clearly established constitutional right.”
Corey Airport Servs. v. Decosta, 587 F.3d 1280, 1288
n.6 (11th Cir. 2009).
To prove that a public official is entitled to qualified immunity, the official “must first prove that he
was acting within the scope of his discretionary
authority when the allegedly wrongful acts occurred.”
Penley ex rel. Estate of Penley v. Eslinger, 605 F.3d
843, 849 (11th Cir. 2010) (quoting Lee, 284 F.3d at
1194). Accepting as true the facts alleged in Ms.
Page’s amended complaint, it appears the individual
defendants were acting in the scope of their discretionary authority when they took the allegedly wrongful acts because their “actions were undertaken pursuant to the performance of [their] duties and within
the scope of [their] authority.” Rich v. Dollar, 841 F.2d
1558, 1564 (11th Cir. 1988) (quotation marks omitted).
“Once the defendant establishes that he was acting
within his discretionary authority, the burden shifts
to the plaintiff to show that qualified immunity is not
appropriate.” Id. (quoting Lee, 284 F.3d at 1194). The
question whether qualified immunity is appropriate
is, itself, a two part test that the court may address
in either order. See Pearson v. Callahan, 555 U.S.
223, 236 (2009). One part of the test is “whether [the]

App.29a
plaintiff’s allegations, if true, establish a constitutional
violation.” Hope v. Pelzer, 536 U.S. 730, 736 (2002)
(quotation marks and citation omitted). The second
part is whether the constitutional violation was clearly
established at the time of the alleged wrongful conduct.
Pearson, 555 U.S. at 816. The public official is entitled
to qualified immunity unless the plaintiff establishes
both parts of the test; failure to establish either
prong dooms the plaintiff’s case.
“A government official’s conduct violates clearly
established law when, at the time of the alleged conduct, the contours of the right are sufficiently clear
that every ‘reasonable official would have understood
that what he is doing violates that right.’” Mikko v.
City of Atlanta, 857 F.3d 1136, 1146 (11th Cir. 2017)
(quoting Ashcroft v. al-Kidd, 563 U.S. 731, 741 (2011)).
The court “look[s] only to binding precedent—holdings
of cases drawn from the United States Supreme
Court, [the Eleventh Circuit], or the highest court of
the state where the [conduct] took place.” Id. (last alteration in original) (quotation marks omitted). Courts
“do not require a case directly on point, but existing
precedent must have placed the statutory or constitutional question beyond debate.” Ashcroft, 563 U.S. at
741.
i. Count 1: Procedural Due Process
Count 1 asserts that the individual defendants in
their individual capacities violated Ms. Page’s procedural due process rights by dismissing her without
following the School of Nursing’s procedures for
dismissing a student. (Doc. 25 at 14-15).
“[A] § 1983 claim alleging the denial of procedural
due process requires proof of three elements: (1) a

App.30a
deprivation of constitutionally-protected liberty or property interest; (2) state action; and (3) constitutionally-inadequate process.” Cook v. Randolph County,
Ga., 573 F.3d 1143, 1148-49 (11th Cir. 2009) (quoting
Grayden v. Rhodes, 345 F.3d 1225, 1232 (11th Cir.
2003)).
Because the court must address each individual
defendant separately, the court will describe the alleged
actions of each defendant. See Corey Airport Servs.,
587 F.3d at 1288 n.6. According to Ms. Page’s amended
complaint:


Mr. Hicks sent the three negative clinical evaluations, including one that was about another
nursing student, to Ms. McMullan. (Doc. 25 at
5).



Ms. McMullan made a unilateral decision to
dismiss Ms. Page based on the three negative
evaluations. (Doc. 25 at 12). On August 28, 2016,
she called a meeting to be held on August 29,
2016, with Ms. Page, Mr. Tofani, and several
other unidentified people. (Id. at 5-6). At the
meeting, Ms. McMullan informed Ms. Page that
she would be receiving an F in her clinical course
and was dismissed from the Program “effective
immediately.” (Id. at 5-6). Ms. McMullan did not
provide Ms. Page with any pre-or post-meeting
written notice of the people who would be
present at the meeting, the proposed dismissal,
the reasons for the proposed dismissal, or the
negative evaluations. (Id. at 5).
On October 5, 2016, about five weeks after
the August meeting, Ms. McMullan wrote a
memorandum outlining the three negative

App.31a
evaluations. (Id. at 9). Ms. McMullan gave that
memorandum to the Senior Associate Dean for
Academic Affairs, but not to Ms. Page. (Id.).
The Senior Associate Dean eventually sent Ms.
McMullan’s memorandum to Ms. Page. (Id.).


Mr. Tofani was present at the August 29, 2016
meeting during which Ms. Page was informed of
her dismissal from the Program. (Doc. 25 at 56). After Ms. McMullan informed Ms. Page of
her dismissal, he gave Ms. Page his business
card and asked her to call him when she was
ready to discuss her options to appeal the
dismissal. (Id. at 6). Mr. Tofani did not provide
Ms. Page with any pre- or post-meeting written
notice of failing the clinical course or being
dismissed from the Program. (Id.).
On September 16, 2016, about two weeks after
the August meeting, Ms. Page met again with
Mr. Tofani and a non-party, Director of Student
Affairs John Updegraff. (Doc. 25 at 7). At the
meeting, Mr. Tofani represented both that Ms.
Page had been dismissed from the Program and
that she had not yet been dismissed, but that
she would be dismissed at the end of the
semester. (Id.). He also stated that she would not
be reinstated. (Id.).
On October 27, 2016, Mr. Tofani emailed Ms.
Page a letter describing a “‘written investigative
report discussing allegations of misconduct’
against Plaintiff Page” and explaining the
appeals process. (Doc. 25 at 10). Ms. Page
responded to his email by sending a letter telling
him that the School and its personnel had
refused to follow the procedural steps for

App.32a
addressing “academic misconduct.” (Id. at 11).
He sent that letter on to the Dean of the Nursing
School, Dr. Doreen Harper. (Id. at 10-11).
Based on those allegations, Mr. Hicks is entitled
to qualified immunity. Ms. Page alleges only that he
provided negative evaluations about her performance
to Ms. McMullan. That allegation does not constitute
a “deprivation of constitutionally-protected liberty or
property interest.” Cook, 573 F.3d at 1148-49. Professors and supervisors must be allowed to provide
evaluations of students to school administrators.
What the school administrators do with those evaluations is a different issue, and whether Ms. McMullan
and Mr. Tofani are entitled to qualified immunity is
a closer question.
Ms. Page does not assert that Mr. Tofani made
the decision to dismiss her from the Program; she alleges only that Ms. McMullan made that “unilateral”
decision. (Doc. 25 at 12). But she does allege that Ms.
McMullan and Mr. Tofani were involved in the meeting
during which they informed Ms. Page that she was
being dismissed, and that they were involved in the
post-dismissal actions taken by the School and other
administrators. (Id. at 7-11). At the motion to dismiss
stage, that is enough to allege that Mr. Tofani was
involved in the purported deprivation. So the court
must determine whether, taken as true, Ms. Page alleges facts showing that Ms. McMullan’s and Mr.
Tofani’s actions: (1) deprived her of a constitutionallyprotected liberty or property interest; (2) constituted
state action; and (3) provided constitutionally inadequate process. Cook, 573 F.3d at 1148-49. The court
concludes that, taken as true, the amended complaint asserts a deprivation of a constitutionally pro-

App.33a
tected property interest, but it does not assert constitutionally inadequate process because the postdeprivation process cured any inadequate pre-deprivation process.
In Barnes v. Zaccari, the Eleventh Circuit held that
when a State’s official regulations create a “legitimate claim of entitlement to remain enrolled” at a
state university, the student has a constitutionally
protected property interest in that enrollment. 669
F.3d 1295, 1304 (11th Cir. 2012). In that case, the
State’s official regulations limited the university’s
authority to discipline students for misconduct unless
disciplinary sanctions were “for cause.” Id.
As in Barnes, in this case, Ms. Page alleges that
the School of Nursing Student Handbook requires the
School and its personnel to follow certain procedures
before taking action against a student for academic
misconduct. (Doc. 25 at 12). And as in Barnes, it
appears that the Student Handbook creates a “legitimate claim of entitlement to remain enrolled” until
the decision-makers follow those procedures. Barnes,
669 F.3d at 1304. Thus, at this stage, it appears that
Ms. Page’s amended complaint adequately alleges that
she had a property interest in remaining enrolled at
the School of Nursing until the School followed the
procedures laid out in the Student Handbook.
Defendants do not contest that Ms. Page adequately alleged the second element of a procedural
due process claim—state action. See Cook, 573 F.3d
at 1148-49. So the court proceeds to the third element—
constitutionally inadequate process. Id. A student
dismissed from a public school for academic misconduct
is entitled to less process than a student dismissed
for disciplinary reasons. Haberle v. Univ. of Ala., 803

App.34a
F.2d 1536, 1539 (11th Cir. 1986). “Formal hearings
are not required in academic dismissals. Rather, the
Supreme Court held that the decision-making process
need only be ‘careful and deliberate.’” Id. (quoting
Bd. of Curators, Univ. of Mo. v. Horowitz, 435 U.S.
78, 85 (1978)). The Supreme Court explained that
academic dismissals require less process because “the
determination whether to dismiss a student for
academic reasons requires an expert evaluation of
cumulative information and is not readily adapted to
the procedural rules of judicial or administrative
decision-making.” Horowitz, 435 U.S. at 90.
Taking as true the allegations in Ms. Page’s
amended complaint, she arguably did not receive
constitutionally adequate pre-dismissal process. The
dismissal that Ms. Page describes was not “careful
and deliberate,” but rushed and, perhaps, confused.
Mr. Hicks received some negative evaluations, one of
which was not about Ms. Page, between August 18 and
August 24, and forwarded them to Ms. McMullan. (Doc.
25 at 4-5, 9). By August 28, Ms. McMullan and,
apparently, Mr. Tofani, had decided to dismiss Ms.
Page based on those evaluations, which they had not
independently investigated or shown to Ms. Page. (Id.
at 5-6, 12). And the court lacks any information about
the content of the two evaluations that were about
Ms. Page, so the court cannot determine whether the
hasty nature of the pre-dismissal process was warranted. Taken in the light most favorable to Ms.
Page, that is not “careful and deliberate.”
Nevertheless, the court finds that Ms. Page fails
to state a procedural due process claim. “[O]nly when
the state refuses to provide a process sufficient to
remedy the procedural deprivation does a constitutional

App.35a
violation actionable under section 1983 arise.” McKinney v. Pate, 20 F.3d 1550, 1557 (11th Cir. 1994)
(en banc). “This rule . . . recognizes that the state must
have the opportunity to remedy the procedural failings
of its subdivisions and agencies in the appropriate
fora—agencies, review boards, and state courts—
before being subjected to a claim alleging a procedural
due process violation.” Cotton v. Jackson, 216 F.3d
1328, 1331 (11th Cir. 2000) (quotation marks omitted).
Ms. Page alleges that, after her dismissal, she
corresponded at length with different administrators,
and the School eventually held a hearing at which
she was permitted to present evidence and argument.
(Doc. 25 at 12-13). She takes issue with the adequacy
of that hearing, but, because this was an academic
dismissal, she was not entitled to any hearing at all,
as long as the process afforded her was “careful and
deliberate.” Horowitz, 435 U.S. at 90; Haberle, 803
F.2d at 1539. And nothing in the amended complaint
indicates that the panel hearing was anything other
than “careful and deliberate.”
Ms. Page does not assert that Ms. McMullan or
Mr. Tofani interfered with the panel hearing or the
witnesses that she would have liked to call, or that
the panel members made their decision based on
anything other than records of her academic performance, including the two negative evaluations
that were indisputably about her. To the extent she
contends that the hearing was inadequate because the
School failed to follow its own rules for the appeals
process, the Supreme Court has rejected the assertion
that, in an academic dismissal case, a school’s failure
to follow its own rules may amount to a procedural
due process violation. See Horowitz, 435 U.S. at 92

App.36a
n.8 (“[Plaintiff] also contends that [defendants] failed
to follow their own rules respecting evaluation of
medical students and that this failure amounted to a
constitutional violation. . . . We disagree with . . . [the
plaintiff]’s . . . legal contention[ ] . . . [The cases on which
the plaintiff] relied[ ] enunciate principles of federal
administrative law rather than of constitutional law
binding upon the States.”) (citation altered); Rollins
v. Bd. of Trustees of the Univ. of Ala., 647 F. App’x 924,
938 (11th Cir. 2016) (unpublished) (stating that the
plaintiff received “significantly more process than the
Constitution requires,” because “[e]ven though the
Supreme Court has held that a formal hearing is not
necessary for academic decisions, the university held
a formal hearing during which [Plaintiff] testified on
his own behalf, called witnesses, and was allowed to
have an adviser present”). Although the process was
not perfect, it was constitutionally adequate.
Even if Ms. Page’s allegations stated a claim
for a violation of procedural due process, the court
finds that such a right was not clearly established in
2016, when Ms. Page was dismissed from the Program.
Ms. Page has not pointed to any cases holding or
placing beyond debate that Ms. McMullan’s and Mr.
Tofani’s conduct in this case violated her procedural
due process right. See Ashcroft, 563 U.S. at 741. The
cases on which Ms. Page relies are disciplinary
misconduct cases, which use a different standard from
academic dismissals. (See Doc. 28 at 17-19); Goss v.
Lopez, 419 U.S. 565, 569 (1975) (addressing dismissals for “disruptive or disobedient conduct”); Barnes,
669 F.3d at 1298 (dismissing a student because the
president of the university concluded that he presented a “clear and present danger”); Dixon v. Ala.

App.37a

State Bd. of Ed., 294 F.2d 150, 151 (5th Cir. 1961)

(discussing whether students at a public university
can be “expelled for misconduct” without notice and
an opportunity for a hearing).
Nor has this court’s independent research located
any cases clearly establishing that Ms. McMullan’s
and Mr. Tofani’s conduct in this case violated Ms.
Page’s procedural due process right. The Supreme
Court’s Horowitz decision requires only that the decision
to dismiss a student be “careful and deliberate”; it
does not say what constitutes “careful and deliberate”
decision-making, except to reject the requirement
that it include a hearing. Horowitz, 435 U.S. at 85,
90. And the Eleventh Circuit’s Haberle decision echoed
the holding that no hearing is required where the
student “was given substantial opportunity to complain
to all relevant decision-makers.” 803 F.2d at 1539.
Ms. Page was able to complain about her dismissal
and the School responded, even if it was after the
fact. She was permitted to appear at a hearing to
defend her academic progress and contest the negative
evaluation that was about a different student. The
court has already concluded that Ms. Page failed to
state a procedural due process claim based on these
facts, but even if she did state a claim, the facts
alleged in this case, at best, implicate an open question
about the level of process due a student dismissed for
academic reasons. And state officials are entitled to
qualified immunity from claims raising open questions;
to avoid qualified immunity, “existing precedent must
have placed the statutory or constitutional question
beyond debate.” Ashcroft, 563 U.S. at 741.
The court WILL DISMISS WITH PREJUDICE
Count 1 to the extent it seeks monetary damages from

App.38a
the individual defendants in their individual capacities,
because they are entitled to qualified immunity. And
because the court concludes that Count 1 fails to
state a claim, the court also WILL DISMISS WITH
PREJUDICE Count 1 to the extent it seeks injunctive
relief from the individual defendants in their official
capacities.
ii. Count 2: Substantive Due Process
Count 2 asserts that the individual defendants
in their individual capacities violated Ms. Page’s substantive due process rights by dismissing her intentionally, willfully, maliciously, with deliberate indifference, and/or with a reckless disregard for the
natural and probable consequences of their act. (Doc.
25 at 16-17).
In the academic dismissal context, the Supreme
Court has described the standard for a substantive
due process claim as follows:
When judges are asked to review the substance of a genuinely academic decision, such
as this one, they should show great respect
for the faculty’s professional judgment.
Plainly, they may not override it unless it is
such a substantial departure from accepted
academic norms as to demonstrate that the
person or committee responsible did not actually exercise professional judgment.

Regents of Univ. of Mich. v. Ewing, 474 U.S. 214, 225

(1985) (footnote omitted). The Eleventh Circuit has
suggested, by negative implication, that “an improper
motive” could be another basis for a substantive due

App.39a
process claim relating to a student’s academic dismissal.
See Haberle, 803 F.2d at 1540.
Ms. Page does not allege that any of the individual
defendants had an improper motive for dismissing her;
the assumption underlying her entire complaint is
that they acted negligently, not with bad faith. Even
though Ms. Page makes passing reference to the individual defendants acting wantonly, that reference is
conclusory and unsupported by factual allegations
indicating a an improper motive. “[T]he Federal Rules
do not require courts to credit a complaint’s conclusory
statements without reference to its factual context.
. . . [they do] not empower [a plaintiff] to plead the
bare elements of his cause of action . . . and expect
his complaint to survive a motion to dismiss.”
Ashcroft v. Iqbal, 556 U.S. 662, 686 (2009).
So that leaves the question whether the dismissal
was “such a substantial departure from accepted
academic norms as to demonstrate that the person or
committee responsible did not actually exercise professional judgment.” Ewing, 474 U.S. at 225. Under
the facts as alleged, Ms. Page has not stated a claim
rising to that level. Even if the defendants negligently
used an evaluation about a different student in their
decision-making process, Ms. Page does not contest
that the two other negative evaluations were about
her, or claim that those two negative evaluations
were false or wrong. The court will not interfere with
a school’s decision to dismiss a nursing student who
has received two negative clinical evaluations; that
decision rests within the decision-makers’ professional
judgment.
Because Ms. Page has not stated a substantive
due process claim relating to her academic dismissal,

App.40a
the individual defendants are entitled to qualified
immunity from that claim. The court WILL DISMISS
WITH PREJUDICE Count 2, seeking monetary damages
from the individual defendants in their individual
capacities. And because the court concludes that Count
2 fails to state a claim, the court also WILL DISMISS
WITH PREJUDICE Count 2 to the extent it seeks
injunctive relief from the individual defendants in
their official capacities.
2. State Law Negligence Claims
Because the court concludes that Counts 1 and
2, the only federal claims, must be dismissed, that
leaves only the state law negligence claims asserted
in Counts 3, 4, and 5. The Supreme Court has noted
that “if the federal claims are dismissed before
trial, . . . the state claims should be dismissed as
well.” See United Mine Workers of Am. v. Gibbs, 383
U.S. 715, 726 (1966). The Eleventh Circuit has also
stated that “[t]he decision to exercise supplemental
jurisdiction over pendant state claims rests within
the discretion of the district court. We have encouraged
district courts to dismiss any remaining state claims
when, as here, the federal claims have been dismissed
prior to trial.” Raney v. Allstate Ins. Co., 370 F.3d
1086, 1088-89 (11th Cir. 2004) (citations omitted)
(emphasis added).
In light of the dismissal of all of Ms. Page’s federal claims and the Eleventh Circuit’s encouragement
to dismiss state law claims when the federal claims
have been dismissed before trial, the court declines to
exercise supplemental jurisdiction over the state law
claims. The court WILL DISMISS WITHOUT PREJUDICE the state law claims.

App.41a
III. Conclusion
The court finds that the Board of Trustees is
entitled to Eleventh Amendment immunity as to all
of the claims brought against it, regardless of the
form of relief requested; the individual defendants in
their official capacities are entitled to Eleventh
Amendment immunity from Counts 1 and 2 as to the
request for monetary damages, but not as to the request
for injunctive relief; Counts 1 and 2 fail to state a
claim; and the individual defendants in their individual
capacities are entitled to qualified immunity as to
Counts 1 and 2 because Ms. Page’s allegations fail to
establish that they violated her constitutional due
process rights.
Consistent with those findings, the court WILL
GRANT Defendants’ motion to dismiss the amended
complaint. The court WILL DISMISS WITHOUT
PREJUDICE for lack of jurisdiction: (1) the Board of
Trustees as a defendant; (2) Counts 1 and 2, to the
extent they seek monetary damages from the individual
defendants in their official capacities; and (3) Counts
3, 4, and 5. The court WILL DISMISS WITH PREJUDICE: (1) Counts 1 and 2, to the extent that they
seek injunctive relief from the individual defendants
in their official capacities, for failure to state a claim;
and (2) Counts 1 and 2, to the extent they seek
monetary damages from the individual defendants in
their individual capacities, because those defendants
are entitled to qualified immunity.
The court will enter a separate order consistent
with this opinion.
DONE and ORDERED this 12th day of February,
2018.

App.42a

/s/ Karon Owen Bowdre
Chief United States District Judge

App.43a
FINAL ORDER OF THE DISTRICT COURT
(FEBRUARY 12, 2018)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
________________________
ASHLEY WILCOX PAGE,

Plaintiff,
v.
TODD L. HICKS, NNA, CRNA; ET AL.,

Defendants.

________________________
2:16-CV-01993-KOB

Before: Karon Owen BOWDRE,
Chief United States District Judge.
This matter is before the court on Defendants’
motion to dismiss the amended complaint. (Doc. 26).
For the reasons stated in the accompanying memorandum opinion, this court GRANTS the motion to dismiss.
The court DISMISSES WITHOUT PREJUDICE,
for lack of jurisdiction: (1) the Board of Trustees as a
defendant; (2) Counts 1 and 2, to the extent they seek
monetary damages from the individual defendants in
their official capacities; and (3) Counts 3, 4, and 5.
The court DISMISSES WITH PREJUDICE: (1) Counts
1 and 2, to the extent they seek injunctive relief from

App.44a
the individual defendants in their official capacities;
and (2) Counts 1 and 2, to the extent they seek
monetary damages against the individual defendants
in their individual capacities.
DONE and ORDERED this 12th day of February, 2018.
/s/ Karon Owen Bowdre
Chief United States District Judge

App.45a
MEMORANDUM OPINION AND ORDER OF THE
DISTRICT COURT FOR THE NORTHERN
DISTRICT OF ALABAMA
(JULY 17, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
________________________
ASHLEY WILCOX PAGE,

Plaintiff,
v.
TODD L. HICKS, NNA, CRNA, ET AL.,

Defendants.

________________________
No. 2:16-cv-01993-KOB

Before: Karon Owen BOWDRE,
Chief United States District Judge
This matter is currently before the court on
Defendants’ Motion to Dismiss, in which they argue
that Plaintiff’s Complaint should be dismissed because
the court lacks subject matter jurisdiction. (Doc. 1-23).
On June 9, 2017, this court ordered the Plaintiff to show
cause why it should not dismiss her claims because
they are not ripe for adjudication. (Doc. 18). Plaintiff
filed a response to that order explaining why she contends her claims are ripe. (Doc. 19). She correctly
observes in that response, “The Defendants’ attack in

App.46a
this case is based solely on the Complaint’s allegations
and is, therefore, a facial attack.” (Id. at 6). Indeed,
by its nature, a motion to dismiss makes a “facial
attack” on the sufficiency of the allegations contained
in a complaint. See also Stalley v. Orlando Reg’l
Healthcare Sys., Inc., 524 F.3d 1229, 1232-33 (11th
Cir. 2008) (citing and quoting McElmurray v. Consol.
Gov’t of Augusta-Richmond Cty., 501 F.3d 1244, 1251
(11th Cir. 2007)) (“A defendant can move to dismiss a
complaint under Rule 12(b)(1) for lack of subject matter
jurisdiction by either facial or factual attack. A facial
attack on the complaint requires the court merely to
look and see if the plaintiff has sufficiently alleged a
basis of subject matter jurisdiction, and the allegations
in [the] complaint are taken as true for the purposes
of the motion.”). Taking the allegations within the four
corners of her Complaint as true, the question remains
whether they sufficiently establish that her claim is
ripe for adjudication thus properly invoking the court’s
subject matter jurisdiction.
As the court has already explained, Plaintiff’s
Complaint shows that at the time of filing, Ms. Page
had not completed the School of Nursing’s internal
appeals process, as she must for her dismissal to be
final under the rule in Stevenson v. Bd. of Educ. of
Wheeler Cty., 426 F.2d 1154 (5th Cir. 1970).1 See (Doc.
18 at 4). In her response, Ms. Page includes new factual
information not contained in her Complaint that the
court cannot consider in ruling on Defendants’ Motion
to Dismiss. Because the Plaintiff’s Complaint on its
1 In Bonner v. City of Prichard, 661 F.2d 1206, 1207 (11th Cir.
1981) (en banc), the Eleventh Circuit adopted as binding precedent
all decisions of the former Fifth Circuit handed down prior to
October 1, 1981.

App.47a
face fails to allege facts to show her claims are ripe
for adjudication, the court lacks subject matter jurisdiction to hear Ms. Page’s claims. See Fed. R. Civ. P.
12(b)(1).
The court GRANTS the Motion to Dismiss. Should
Ms. Page wish to file an amended Complaint, she may
file a motion for leave to do so by July 20, 2017.
DONE and ORDERED this 17th day of July, 2017.
/s/ Karon Owen Bowdre
Chief United States District Judge

App.48a
ORDER TO SHOW CAUSE
(JUNE 9, 2017)
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
________________________
ASHLEY WILCOX PAGE,

Plaintiff,
v.
TODD L. HICKS, NNA, CRNA, ET AL.,

Defendants.

________________________
No. 2:16-cv-01993-KOB

Before: Karon Owen BOWDRE,
Chief United States District Judge
Ms. Page filed a complaint challenging her dismissal from the University of Alabama at Birmingham
School of Nursing Anesthesia Program under various
theories. This matter is before the court on Defendants’
Motion to Dismiss Plaintiff’s Complaint. (Doc. 1-23).
Defendants argue that Plaintiff’s Complaint should be
dismissed because the court lacks subject matter jurisdiction over this matter because—in addition to other
reasons—Plaintiff’s procedural due process claim is
not ripe. Though the court directed the parties to brief
Defendants’ subject matter jurisdiction challenges,
see (doc. 6), neither Plaintiff’s Response nor Defendants’

App.49a
Reply addresses the ripeness question. See Boyce v.
Augusta-Richmond Cty., 111 F. Supp. 2d 1363, 1381
(11th Cir. 2000) (citing Reahard v. Lee Cty., 978 F.2d
1212, 1213 (11th Cir. 1992)) (“Ripeness, or the question of whether a matter is ready for review, is an
issue of subject matter jurisdiction.”).
“The ripeness doctrine prevent[s] the courts,
through avoidance of premature adjudication, from
entangling themselves in abstract disagreements.”
Pittman v. Cole, 267 F.3d 1269, 1278 (11th Cir. 2001)
(quoting Coal. for the Abolition of Marijuana Prohibition
v. City of Atlanta, 219 F.3d 1301, 1315 (11th Cir. 2000)).
Here, ripeness requires a final decision regarding Ms.
Page’s status as a student in the Anesthesia Program:
“[T]he expulsion decision is not ripe for adjudication
absent the denial of relief to the student by the school
board or the designee of the school board, for such
purposes.” Stevenson v. Bd. of Educ. of Wheeler Cty.,
426 F.2d 1154, 1157 (5th Cir. 1970).1 Specifically, this
requirement contemplates that Ms. Page complete any
internal appeal procedures provided by UAB before
pursuing her claims before this court, because “federal
courts [should not] intervene in school personnel and
management problems without requiring such prior
reference to local institutional authority as may be
necessary to assure that the action complained of is
final within the institution in the sense that it is ripe
for adjudication.” Id. (holding that though the district
court should have referred students’ suspensions to
the board of education before examining them on the
1 In Bonner v. City of Prichard, 661 F.2d 1206, 1207 (11th Cir.
1981) (en banc), the Eleventh Circuit adopted as binding precedent
all decisions of the former Fifth Circuit handed down prior to
October 1, 1981.

App.50a
merits, school board members’ testimony before the
district court that they would have upheld the suspension decisions was sufficient to make the students’
claims ripe).
The ripeness question at issue here is whether
Ms. Page has, in fact, been dismissed from UAB, or
whether she may be dismissed in the future. And the
answer to that question determines whether both the
procedural and substantive due process claims, as well
as Ms. Page’s negligence claims against the individual
Defendants, are ripe, i.e., ready, for disposition by this
court, thus giving this court jurisdiction to adjudicate
them. See Univ. of S. Ala. v. Am. Tobacco Co., 168 F.3d
405, 409 (11th Cir. 1999) (citations omitted) (“[I]t is well
settled that a federal court is obligated to inquire
into subject matter jurisdiction sua sponte whenever
it may be lacking.”).
The court notes that Defendants’ Motion appears to
conflate the requirement that a claim be ripe for disposition with the elements of a procedural due process
claim. Regarding the latter, “only when the state refuses
to provide a process sufficient to remedy the procedural
deprivation does a constitutional violation actionable
under section 1983 arise.” See McKinney v. Pate, 20
F.3d 1550, 1557 (11th Cir. 1994) (en banc). “This rule
(that a section 1983 claim is not stated unless
inadequate state procedures exist to remedy an alleged
procedural deprivation) recognizes that the state must
have the opportunity to ‘remedy the procedural failings
of its subdivisions and agencies in the appropriate
fora—agencies, review boards, and state courts’ before
being subjected to a claim alleging a procedural due
process violation.” Cotton v. Jackson, 216 F.3d 1328,

App.51a
1331 (11th Cir. 2008) (quoting McKinney, 20 F.3d at
1560).
But the McKinney rule did not address the question of ripeness, so it does not apply to the question
of this court’s subject matter jurisdiction. Ripeness
addresses a court’s Article III power to hear only
cases and controversies; the McKinney standard considers whether a plaintiff has a claim at all. Here,
the first question is whether Plaintiff’s claims are
even ripe, not whether she has claims at all.
The parties now appear to agree that Ms. Page
was dismissed from UAB’s School of Nursing effective
August 29, 2016. Compare, e.g., (Doc. 1-2 at 3-4 ¶ 16)
(Plaintiff’s Complaint), and (Doc. 11 at 6 ¶ 2) (Plaintiff’s
Response), with (Doc. 14 at 7) (Defendant’s Reply). But
the full course of events concerning her dismissal and
appeals process is not pled in the Complaint, which
Plaintiff filed on November 11, 2016. See (Doc. 11 at
8 n.3) (Plaintiff’s Response) (submitted February 13,
2017) (“An Advisory Committee Hearing Panel convened on December 7, 2016, and submitted a recommendation to Dr. Harper. However, the Plaintiff filed
her case on November 11, 2016.”).
Additionally, Plaintiff’s own Complaint is internally inconsistent on the question of whether and
when she was dismissed. Compare, e.g., (Doc. 1-1 at
3-4 ¶ 16) (stating that Plaintiff was dismissed on
August 29, 2016), and (Doc. 1-1 at 11 ¶ 66) (requesting
that the court “[i]mmediately reinstate Plaintiff Page
as a student in Defendant UAB’s School of Nursing
anesthesia program”), with (Doc. 1-1 at 4 ¶ 22) (stating
that Defendant Tofani informed Plaintiff that she “had
received a failure in a clinical setting which would
lead to dismissal at the end of the semester”), and

App.52a
(Doc. 1-1 at 11 ¶ 66) (requesting that the court “[e]njoin
Defendant UAB from issuing a failing grade in Plaintiff
Page’s clinical course and/or dismissing Plaintiff Page
from the University of Alabama at Birmingham School
of Nursing”). The Complaint also makes clear that
Ms. Page’s appeals process had not been completed
at the time she filed her Complaint. See (Doc. 1-1 at 7
¶ 33) (“On November 9, 2016, Plaintiff Page received a
letter from Dr. Harper stating that on November 17,
2016 an Advisory Committee Hearing Panel would
convene a hearing.”).
Further, in their Motion to Dismiss, filed on
December 20, 2016, Defendants maintain that Ms. Page
remains a student at UAB and is only possibly subject
to being dismissed from the Anesthesia Program. See,
e.g., (Doc. 1-23 at 2 ¶ 3) (citing ¶ 22 of the Complaint)
(“Plaintiff has not been dismissed from UAB or the
School of Nursing Anesthesia Program.”). But in their
Reply, Defendants stake out a starkly different position,
arguing that Ms. Page was dismissed on August 29,
2016. (Doc. 14 at 7) (citing ¶ 16 of the Complaint) (“It
is undisputed that Plaintiff is no longer a student.”).
Given the lack of clarity afforded by Ms. Page’s
Complaint and the Motion to Dismiss briefing regarding
whether and when Ms. Page was dismissed from UAB’s
School of Nursing Anesthesia Program, the court
ORDERS Ms. Page to SHOW CAUSE IN WRITING on
or before June 23, 2017 why the court should not
dismiss her claims because they are not ripe.
DONE and ORDERED this 9th day of June, 2017.
/s/ Karon Owen Bowdre
Chief United States District Judge

App.53a
OPINION AND ORDER OF THE DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
(DECEMBER 9, 2016)
IN THE UNITED STATES DISTRICT COURT
FOR THE MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
________________________
ASHLEY WILCOX PAGE,

Plaintiff,
v.
TODD L. HICKS, NNA, CRNA, ET AL.,

Defendants.

________________________

Civil Action No. 2:16cv902-MHT (WO)
Before: Myron H. THOMPSON,
United States District Judge
Plaintiff Ashley Wilcox Page, a student enrolled
at the University of Alabama at Birmingham School
of Nursing Anesthesia program, brought this lawsuit
in the Circuit Court of Montgomery County, Alabama
against four defendants—the University of Alabama
at Birmingham, as well as an administrator and two
professors at the university—asserting two federal
claims that they improperly dismissed her from the
program in violation of her Fourteenth Amendment due
process rights and 42 U.S.C. § 1983. Page also brought
three state-law claims that each individual defendant

App.54a
acted negligently leading up to her dismissal. The
defendants then removed the action to the Middle
District of Alabama. Jurisdiction is proper under 28
U.S.C. § 1331 (federal question) and 28 U.S.C. § 1367(a)
(supplemental jurisdiction).
This matter is before the court on the defendants’
motion to transfer venue to the Northern District of
Alabama. In their motion, the defendants argue that
the case should be transferred because it would promote
the convenience of the parties and witnesses pursuant
to 28 U.S.C. § 1404. For reasons that will be explained,
the defendants’ motion will be granted.
28 U.S.C. § 1404 gives district courts authority
to transfer any civil action to any district in which it
could have been brought originally for “the convenience
of parties and witnesses, in the interest of justice.” 28
U.S.C. § 1404(a). “Trial judges are permitted a broad
discretion in weighing the conflicting arguments as
to venue.” England v. ITT Thompson Indus., Inc., 856
F.2d 1518, 1520 (11th Cir. 1988).
In deciding whether a transfer is proper, the
court “must engage in an individualized, case-by-case
consideration of convenience and fairness.” McGlathery
v. Corizon, Inc., 2012 WL 1080789, at *1 (M.D. Ala.
2012) (Thompson, J.) (quoting Stewart Org., Inc. v.
Ricoh Corp., 487 U.S. 22, 29 (1988)) (internal quotation
marks omitted). The court conducts this inquiry in
two steps. First, it determines whether the case could
“originally have been brought in the proposed transferee
district court.” Id. at *1. Next, it “must decide whether
the balance of convenience favors transfer.” Id. As to
the second step, several relevant factors include
“(1) the convenience of the witnesses; (2) the

App.55a
location of relevant documents and the
relative ease of access to sources of proof; (3)
the convenience of the parties; (4) the locus
of operative facts; (5) the availability of process
to compel the attendance of unwilling witnesses; (6) the relative means of the parties;
(7) a forum’s familiarity with the governing
law; (8) the weight accorded a plaintiff’s choice
of forum; and (9) trial efficiency and the
interests of justice, based on the totality of
the circumstances.”

Manuel v. Convergys Corp., 430 F.3d 1132, 1135 n.1

(11th Cir. 2005).

Page could have originally brought this case in
the Northern District. “A civil action may be brought
in . . . a judicial district in which any defendant
resides, if all defendants are residents of the State in
which the district is located; [or a district in which] a
substantial part of the events or omissions giving
rise to the claim occurred, or a substantial part of
property that is the subject of the action is situated.”
28 U.S.C. § 1391(b)(1)-(2). All defendants are residents
of the State of Alabama; all but one of the individual
defendants reside in the Northern District; and the
university is also located there. In addition, substantial
events giving rise to Page’s claims occurred in the
Northern District, including faculty and staff communications related to her dismissal, a meeting to discuss Page’s performance, and the convocation of the
advisory committee hearing panel that will review
Page’s dismissal.
The court must therefore turn to the balance of
the Manuel factors to determine whether transfer is
appropriate. Because the parties do not rely on—and

App.56a
have not provided evidence related to—the “relative
means of the parties,” or either “forum’s familiarity
with the governing law,” Manuel, 430 F.3d at 1135,
the court will consider only the remaining factors.
The defendants rely on the fact that located in the
Northern District is the “locus of operative facts”
relevant to the merits of Page’s claims. The core of
Page’s complaint consists of the federal claims that
the university and its officials failed to provide constitutionally adequate due process prior to dismissing
her, and the state claims that they acted negligently
in doing so; the locus of operative facts for these claims
undoubtedly lies within the Northern District, where
the administrators who decided her fate made their
decisions and where an ongoing hearing panel has been
convened to review the dismissal.1 As such, this factor
weighs heavily in favor of transfer.
The defendants also suggest that the location of
witnesses supports transfer. Prior to removal Page
subpoenaed for testimony at a state-court hearing
three witnesses in addition to the individual defendants:
each witness is a university official or instructor who
is employed within the Northern District. See State
Court Record (doc. no. 1-5) at 27-34. Although not
defendants in this case, employees of a party are considered party witnesses for the purposes of the venue
transfer analysis and therefore given less weight. See
1 Admittedly, the locus of operative facts concerning Page’s statelaw claim of negligence against one of the individual defendants,
Todd Hicks (her clinical supervisor), appears to be within the
Middle District of Alabama, where he is employed. But the
locus of each of Page’s four other claims concerns the actions of
the university or its officials within the geographic area of the
Northern District.

App.57a

Weintraub v. Advanced Corr. Healthcare, Inc., 161 F.

Supp. 3d 1272, 1280 (N.D. Ga. 2015) (Totenberg, J.)
(“The convenience of a certain venue for party witnesses
is given less weight because party witnesses are the
parties themselves and those closely aligned with a
party, and they are presumed to be more willing to
testify in a different forum, while there is no such presumption as to a non-party witness.” (internal quotation marks, citation and alterations omitted)). Nonetheless, the location of these university staff indicates
that the most significant witnesses and the locus of
operative facts are located in the Northern District.
The apparent materiality and significance of these
witnesses, as reflected by Page’s own planned reliance
on them in state court, weighs in favor of transfer.
The convenience of non-party witnesses—the most
important factor in the venue analysis—weighs only
slightly in favor of transfer. The defendants identify
several non-party witnesses, members of the university
hearing panel convened to review the appeal of Page’s
recommended dismissal, who are located in the Northern District.2 These witnesses are likely to provide
relevant testimony about the adequacy of the procedures employed by the defendants leading up to Page’s
dismissal. In an effort to oppose transfer, Page
identifies 15 Certified Registered Nurse Anesthetists
(“CNRAs”) with whom she worked during her clinical
rotation at Baptist South Medical Hospital, which is
located within the Middle District’s geographic area.
2 A hearing panel for academic misconduct is to be comprised of
three faculty and two student members. See University of Alabama
at Birmingham School of Nursing 2016-2017 Student Handbook
(doc. no. 1-4) at 33. For the purposes of this motion, it appears the
two student members would be considered non-party witnesses.

App.58a
However, while Page indicates that she worked with
each during her rotation, she has not explained how
their testimony would be relevant or material to this
case, which centers not around the adequacy of her
performance during the rotation but rather the adequacy of procedures provided by the university and
its officials. The mere recitation of a large number of
employees in a relevant group “does not, on the basis
of that fact alone, necessarily mean that all of them
are likely trial witnesses with material and reasonably
nonduplicative knowledge.” Carroll v. Texas Instruments, Inc., 910 F. Supp. 2d 1331, 1337 (M.D. Ala.
2012) (Thompson, J.). Because the court should
“consider the content of the witnesses’ testimony in
determining whether [the convenience of the witnesses]
weighs in favor of transfer,” Frederick v. Advanced
Financial Solutions, Inc., 558 F. Supp. 2d 699, 704
(E.D. Tex. 2007) (Schell, J.), the critical factor of nonparty witnesses, although close, supports transfer.3
The convenience of parties, although given less
weight than the factors discussed previously, weighs
heavily in favor of transfer. Two of the three individual
defendants reside in the Northern District, as does
Page, and the university is located there. The parties’
location also confirms that the locus of operative
facts resides in the Northern District.
Page also contends that deference is due to her
forum choice. However, less deference is due here
because the locus of operative facts occurred outside
3 To the extent that the testimony of any non-party Baptist South
CNRA witness is relevant, that witness would appear to fall within
the subpoena power of the Northern District because Baptist South
is less than 100 miles from that court. See Fed. R. Civ. P. 45(c)(1)(A).

App.59a
this district. “[W]here the operative facts underlying
the cause of action did not occur within the forum
chosen by the plaintiff, the choice of forum is entitled
to less consideration.” Osgood v. Discount Auto Parts,
LLC, 981 F. Supp. 2d 1259, 1267 (S.D. Fla. 2013)
(Marra, J.); accord Internap Corp. v. Noction Inc., 114
F. Supp. 3d 1336, 1342 (N.D. Ga. 2015) (Totenberg, J.)
(“[M]ultiple district courts within the Eleventh Circuit
have found, and this Court agrees, that Plaintiff’s choice
of forum should be entitled to less weight where the
locus of operative facts is outside of the chosen forum.”).
The fact that Page does not herself reside in this district also makes her forum choice deserving of less
deference. See Patel v. Howard Johnson Franchise Sys.,
Inc., 928 F. Supp. 1099, 1101 (M.D. Ala. 1996) (DeMent,
J.).
Page also contends that the location of documents
disfavors transfer. Although some documents related
to her clinical performance are located within this
district, documents relevant to the university’s procedures and decision-making appear to be located in
the Northern District. Accordingly, this factor is, at
best, neutral. In any event, the location of documents
deserves little weight in light of electronic discovery
and transmission methods. Carroll, 910 F. Supp. 2d
at 1339.
Finally, the interests of justice and the public
interest weigh in favor of the case being heard in the
Northern District, where the university is located
and where the most relevant events occurred. As the
Supreme Court has said, “There is a local interest in
having localized controversies decided at home.” Gulf
Oil Corp. v. Gilbert, 330 U.S. 501, 509 (1947); see also
Piper Aircraft v. Reyno, 454 U.S. 235, 260 (1981).

App.60a
Based on these facts, a transfer of venue is
warranted.
***
Accordingly, it is the ORDER, JUDGMENT, AND
DECREE of the court that the motion to transfer (doc.
no. 7) filed by defendants Todd L. Hicks, Susan P.
McMullan, Peter M. Tofani, and the University of
Alabama at Birmingham is granted and this lawsuit
is transferred in its entirety to the United States District Court for the Northern District of Alabama.
All other pending motions remain for resolution by
the transferee court.
The clerk of the court is DIRECTED to take
appropriate steps to effect the transfer.
This case is closed in this court.
DONE, this the 9th day of December, 2016.
/s/ Myron H. Thompson
United States District Judge

App.61a
PLAINTIFF’S FIRST AMENDED COMPLAINT
(JULY 21, 2017)
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
________________________
ASHLEY WILCOX PAGE,

Plaintiff,
v.
TODD L. HICKS, NNA, CRNA, ET AL.,

Defendants.

________________________

Civil Action No. 2:16-cv-01993-KOB
COMES NOW, the Plaintiff, Ashley Wilcox Page,
and hereby files the following First Amended Complaint
against the Defendants, Todd Hicks, Susan McMullan,
Peter Tofani, and the Board of Trustees of the University of Alabama. In support of this First Amended
Complaint, the Plaintiff states the following:
INTRODUCTION
This is an action challenging the lawfulness and
unconstitutional actions taken by the Defendants to
unlawfully dismiss from the UAB School of Nursing
Anesthesia Program the Plaintiff without following
the requirements of due process required by the
Fourteenth Amendment to the Constitution of the

App.62a
United States and provisions of federal law pursuant
to 42 U.S.C. § 1983. The Plaintiff also asserts certain
state law claims that arise from the same series of
facts involved in her unlawful dismissal from school.
PARTIES
1. Plaintiff Ashley Wilcox Page (hereafter referred
to as “Plaintiff Page”) is more than nineteen years of
age, a resident of Shelby County, Alabama, and,
beginning in August 2014, was a student enrolled at
the University of Alabama at Birmingham School of
Nursing Anesthesia Program. Plaintiff Page is a former
student of the UAB School of Nursing Anesthesia
Program and was dismissed from the program on
August 29, 2016. Plaintiff Page had been scheduled
to graduate from the program in December 2016.
2. Defendant Todd L. Hicks, NNA, CRNA is more
than nineteen years of age. Defendant Hicks is a CRNA
who works at Baptist South Hospital, located within
Montgomery County, Alabama.
3. Defendant Susan P. McMullan, PhD, CRNA is
more than nineteen years of age. Defendant McMullan
is a CRNA and Associate Professor at University of
Alabama at Birmingham.
4. Defendant Peter M. Tofani, MS, LTC(R) is more
than nineteen years of age. Defendant Tofani is the
Assistant Dean for Student Affairs in the UAB School
of Nursing and oversees the admission, progression
and graduation operations along with oversight in
student life.
5. Defendant The Board of Trustees of the University of Alabama is a corporate entity established by
the state legislature to organize and govern the Uni-

App.63a
versity of Alabama. The Anesthesia Program is a
program available at the University of Alabama at
Birmingham’s School of Nursing and all employees in
that program operate under the direction and control
of the Board of Trustees of the University of Alabama
(hereafter referred to as “Defendant Board of Trustees”).
JURISDICTION
6. This Court has jurisdiction of the subject matter
of this action, pursuant to 28 U.S.C. § 1331 (federal
question) and 28 U.S.C. § 1367 (a) (supplemental jurisdiction).
VENUE
7. Venue of this action lies in the Northern District
of Alabama pursuant to an Opinion and Order entered
by United States District Judge Myron H. Thompson
dated December 9, 2016. (Doc. 1-26) Judge Thompson’s
Order granted a motion to transfer venue filed by the
defendants pursuant to 28 U.S.C. § 1404.
STATEMENT OF RELEVANT FACTS
8. On December 20, 2013, Plaintiff Page was
accepted into the UAB School of Nursing Anesthesia
Program. In August 2014 Plaintiff Page enrolled as a
student at Defendant UAB. Specifically, Plaintiff Page
was a part of the UAB School of Nursing Anesthesia
Program.
9. After starting in the program, Plaintiff Page
maintained good grades and performed well. As a
student in the program, Plaintiff Page incurred over
one hundred thousand dollars in student loan debt to
attend school.

App.64a
10. As a requirement of the program, on August
2, 2016, Plaintiff Page began a clinical rotation at
Baptist South Hospital in Montgomery, Alabama.
11. On August 28, 2016 Plaintiff Page received
a voicemail from Katie Woodfin, Defendant UAB’s
clinical coordinator. The voicemail informed Plaintiff
Page that she needed to meet Ms. Woodfin, Defendant
McMullan, the Nurse Anesthesia Program Director, and
Dr. Laura Wright, an associate professor at Defendant
UAB’s School of Nursing, concerning her clinical performance.
12. On August 28, 2016, Plaintiff Page also
received an email from Defendant McMullan stating
that Defendant McMullan would like to meet with
Plaintiff Page the following day, Monday, August 29th
at 10:00 a.m.
13. Plaintiff Page returned Ms. Woodfin’s missed
call. When Plaintiff Page inquired what would be discussed during the meeting, Ms. Woodfin vaguely
responded that it was to discuss performance issues.
After talking to Ms. Woodfin, Plaintiff Page texted
Defendant Hicks several times asking what was going
on and what the meeting was regarding. Defendant
Hicks never responded to Plaintiff Page’s text.
14. Prior to the meeting that occurred on August
29, 2016, Plaintiff Page was not provided (1) any
written report or complaint regarding any academic
complaint, (2) any written report of alleged misconduct,
or (3) any written report of any grievance reported or
initiated against Plaintiff Page. Plaintiff Page was
also provided no notice whatsoever that the meeting
that occurred on August 29, 2016 was any type of
hearing or proceeding that could result in Plaintiff

App.65a
Page being dismissed from school. Plaintiff Page had
received no written complaint, report, grievance, or
notice that the purpose of the meeting was to advise
her that she would be dismissed from school and the
UAB School of Nursing Anesthesia Program.
15. On August 29, 2016, Plaintiff Page arrived
at the scheduled meeting. To Plaintiff Page’s surprise
and with no written notice of the group of persons
that would participate in the meeting, five individuals
attended the meeting.
16. Defendant McMullan, the UABSON Specialty
Track Coordinator, led the meeting and handed Plaintiff
Page three clinical evaluations from individuals at
Baptist South. The first evaluation was dated August
24, 2016, the second evaluation was dated August 25,
2016, and the third evaluation was dated August 26,
2016. Plaintiff Page had never seen the evaluations.
One of the evaluations presented to Plaintiff Page
appeared to be on another student in the program.
Defendant McMullan, without following required due
process, without any written notice of the proposed
action and or reasons for the dismissal from school,
and apparently without any discussion or consultation
with any of the additional individuals in the meeting,
informed Plaintiff Page at the meeting that Page was
dismissed from the UAB School of Nursing Anesthesia
program.
17. As an Assistant Professor for UAB Nurse
Anesthesia Program, Defendant Hicks was responsible
for providing the evaluations to Defendant UAB. The
clinical evaluations presented to Plaintiff Page on
August 29, 2016 had been transmitted to Defendant
McMullan by Defendant Hicks. Plaintiff Page is of
information and belief that one of the evaluations

App.66a
presented to Plaintiff Page used as a basis to dismiss
Plaintiff Page from school appeared to be on another
student in the program.
18. During the August 29, 2016 meeting, Defendant McMullan informed Plaintiff Page that she would
not be allowed to continue in the program as an
unsafe nurse. Defendant McMullan asked Plaintiff
Page if she believed she was unsafe. Plaintiff Page
responded that she was not unsafe and that she could
provide a safe anesthetic to a patient unsupervised.
19. At the end of the meeting, Defendant
McMullan told Plaintiff Page that she had all the
information she needed. Defendant McMullan, without
further discussion with any of the additional individuals
in the meeting, informed Plaintiff Page that she was
dismissed from the UAB School of Nursing Anesthesia
program effective immediately. Plaintiff Page was
thereafter removed from the nursing program and not
allowed to attend class or participate in any further
clinical rotations as part of her studies. Plaintiff Page
did not at this time receive any report or written document explaining the reasons or findings from her
dismissal from the program.
20. Defendant McMullan also informed Plaintiff
Page that she would be receiving an F in her clinical
course.
21. Before leaving, Defendant Tofani, Assistant
Dean for Student Affairs, handed Plaintiff Page his
business card and asked Plaintiff Page to call him
when she was ready to follow up for the alleged purpose
of explaining to Plaintiff Page her options to appeal
the dismissal decision.

App.67a
22. Plaintiff Page did not receive any documents
memorializing the meeting, stating she had been put
on notice of a course failure, or any stating that she
had been dismissed from the program. Plaintiff Page
received no written notice of the actions taken against
her nor did she receive any written explanations of
the reasons for her immediate dismissal.
23. On September 1, 2016, Plaintiff Page, by
and through undersigned counsel, hand delivered and
mailed a letter to Dr. Linda Moneyham, the Senior
Associate Dean for Academic Affairs, requesting any
and all appeals available to her to appeal the decision
of the school to dismiss her from the Nursing Anesthesia Program.
24. Shortly thereafter, undersigned counsel was
contacted by Ms. Audrey DuPont, legal counsel for
the University of Alabama System. Ms. DuPont was
uncertain about the facts surrounding Plaintiff Page’s
dismissal but did inform undersigned counsel that
Plaintiff Page and her counsel would be allowed to
attend the meeting between Plaintiff Page and with
Defendant Tofani.
25. On September 16, 2016, undersigned counsel
and Ms. Page met with Defendant Tofani and John
Updegraff, Director of Student Affairs. During the
meeting led by Defendant Tofani, Plaintiff Page was
informed by Defendant Tofani that she had received
a failure in the clinical program. Defendant Tofani
also confirmed that Plaintiff Page had been told in
the August 29, 2016 meeting that she was dismissed
from the program for safety reasons. Later in the
meeting, Defendant Tofani changed this representation and suggested that Plaintiff Page would be dismissed at the end of the semester. Defendant Tofani

App.68a
also confirmed that Plaintiff Page would not be
allowed to continue as a student in the program.
Defendant Tofani further stated that Plaintiff Page
would not be reinstated. Defendant Tofani also confirmed in this meeting that Defendant McMullan had
made the decision to fail Plaintiff Page. Defendant
Tofani informed Plaintiff Page that the August 29,
2016 meeting was not a grievance committee but was
a group of assembled faculty members. Defendant Tofani stated to Plaintiff Page that she had received a
failure in a clinical setting which would lead to dismissal at the end of the semester. Defendant Tofani
stated that Ms. Page was still a student at the UAB
School of Nursing; however, Plaintiff Page could not
enter back into a clinical setting. Defendant Tofani explained to Plaintiff Page that Page was to follow the
“Student Academic Complaint” grievance procedure
in the UAB School of Nursing Handbook. At no time
in the September 16, 2016 meeting did Defendant
Tofani ever contend that Plaintiff Page was involved
in any “Academic Misconduct” proceeding. Defendant
Tofani also confirmed that Plaintiff Page had received
nothing in writing about her clinical failure although
the clinical failure would lead to dismissal from the
program. Defendant Tofani stated that Page would not
receive anything until the end of the semester.
26. On September 22, 2016, counsel for Plaintiff
Page contacted Ms. DuPont again via telephone. Ms.
DuPont informed undersigned counsel that Plaintiff
Page had failed a clinical setting and could not
return or enroll in classes. She stated that, after an
individual had called and stated Plaintiff Page was
unsafe, the August 29, 2016 meeting was convened as
an unsafe nursing practice meeting. In disagreement

App.69a
with Defendant Tofani, Ms. DuPont informed undersigned counsel that Plaintiff Page was to follow the
“Academic Misconduct” grievance procedure in the
UAB School of Nursing Handbook.
27. On September 28, 2016, Ms. DuPont sent a
correspondence to undersigned counsel stating that,
after three incidents of unsafe nursing practices,
Baptist South notified Defendant UAB that her clinical
placement was terminated and that she was not allowed
to return to Baptist South. She further stated that
the termination of Plaintiff Page’s clinical placement
for unsafe nursing practices “will result in a course
grade F and her dismissal” from school. Although Ms.
DuPont claimed Plaintiff Page was still a student,
she claimed that Plaintiff Page was not allowed to
participate in the clinical practicum or correlated
special topics course because she has been terminated
from a clinical practicum for unsafe practices.
28. On October 17, 2016, several weeks after
Plaintiff Page was dismissed from school, Dr. Linda
Moneyham, Senior Associate Dean for Academic Affairs,
wrote correspondence to Plaintiff Page stating that
she had reviewed the “report of clinical performance
that was the basis” of Plaintiff Page’s “F” grade.
Moneyham further wrote in the letter to Plaintiff Page
that Moneyham supported the faculty’s decision “in
assignment of a grade of “F” for the course and “your
subsequent dismissal from the Nurse Anesthesia
specialty track” of the MSN program.”
29. Attached to Dr. Moneyham’s October 17, 2016
correspondence to Plaintiff Page was a Memorandum
dated October 5, 2016 and signed by Defendant
McMullan. The memorandum outlined three alleged
incidents of Academic Misconduct: an August 18, 2016

App.70a
email addressed to Defendant Hicks, an August 25,
2016 evaluation, and an August 24, 2016 evaluation.
30. Dr. Moneyham’s October 17, 2016 correspondence to Plaintiff Page was the first time Plaintiff
Page had ever seen the August 18, 2016 email that
was relied upon to dismiss Plaintiff Page from school.
Plaintiff Page had not been presented the email communication during the August 29, 2016 meeting that
resulted in her dismissal from school and had no
knowledge of its existence.
31. One of the evaluations presented to Plaintiff
Page with the correspondence from Moneyham was
an evaluation dated August 25, 2016 signed by a Mr.
Gary Hammond. Plaintiff Page never worked with
anyone by the name of Mr. Hammond. The summary of
events included in Defendant McMullan’s October 5,
2016 memorandum and the August 25, 2016, evaluation
did not occur with Plaintiff Page. Mr. Hammond,
apparently submitted and mistook a different student
for Plaintiff Page when he wrote his evaluation.
32. These three alleged incidents were described
as “academic misconduct” and were the entire basis
of Plaintiff Page’s improper dismissal by the Defendants—one being an email communication that Plaintiff Page was never given the opportunity to refute
and another being an evaluation that apparently was
prepared about another student and written by someone Plaintiff Page had never worked with.
33. In Compliance with Section 4.5(a)(6) of the
UAB School of Nursing Student Handbook, on October
24, 2016, Plaintiff Page submitted a timely written
letter to the Dean of the Nursing School, Dr. Doreen

App.71a
C. Harper, appealing the Senior Associate Dean for
Academic’s decision.
34. On October 27, 2016, Plaintiff Page received
an e-mail correspondence from Defendant Tofani
attaching a letter dated October 26, 2016. In this
letter, Defendant Tofani, who had informed Plaintiff
Page in the September 16, 2016 meeting after Page
was dismissed from school, that Page was involved in
an appeal of a “Student Academic Complaint” process,
now described a “written investigative report discussing
allegations of misconduct” against Plaintiff Page. In
what can only be described as a post dismissal effort
to correct the ongoing failure to provide proper due
process to Plaintiff Page by the Defendants and to
follow their own policies and procedures, Defendant
Tofani attempted to explain the appeals process to
Plaintiff Page. The appeals process described by Defendant Tofani suggested an appeal to Dr. Moneyham,
who already had announced her decision about Plaintiff Page in the October 17, 2016 correspondence sent
to Plaintiff Page from Moneyham.
35. In response to Defendant Tofani’s email, on
November 3, 2016, Plaintiff Page sent a letter to
Defendant Tofani reminding Defendant Tofani that the
Defendants and other school personnel had continued
to refuse to follow the procedural steps for “academic
misconduct” outlined in the School of Nursing’s Student
Handbook.
36. On November 9, 2016, Plaintiff Page received
a letter from Dean Doreen C. Harper, acknowledging
receipt of Page’s November 3, 2016 letter. In this
letter, Dean Harper advises Plaintiff Page that on
November 17, 2016 an “Advisory Committee Hearing
Panel” would convene a hearing to review the appeal

App.72a
by Plaintiff Page. In this November 9, 2016 correspondence, Dean Harper confirmed that the dismissal
of Plaintiff Page from school had occurred and stated
that “the decision to dismiss you was investigated and
made after your August 29, 2016 meeting.” Additionally, Dean Harper suggested that the submission of
the “written report” to Plaintiff Page that was received
simultaneously with Moneyham’s October 17, 2016
decision to uphold Page’s dismissal from school on
August 29, 2016 was somehow compliant with school
policies and procedures outlined in the UAB School of
Nursing Student Handbook. The Student Handbook,
however, requires that such “written report” be presented to the student before any such student dismissal occurs, not after the fact, almost two months
later, as occurred regarding Plaintiff Page’s dismissal
from school.
37. The UAB School of Nursing Student Handbook requires multiple due process procedures occur
prior to taking any action against a student for
alleged “academic misconduct”. The Defendants failed
to follow these required procedures. The decision to
dismiss Plaintiff Page from school occurred on August
29, 2016. The unilateral decision to dismiss Plaintiff
Page from school was made by Defendant McMullan on
this date with no written report or notice to Plaintiff
Page. After Page was dismissed from school, Defendant
McMullan prepared a document dated October 5, 2016
that purports to be a “written report” of Academic
Misconduct. This post dismissal “written report” does
not comply with the notice requirements included in
the UAB School of Nursing Student Handbook. Additionally, making the decision to dismiss Page from
school by the Defendants prior to Plaintiff Page ever

App.73a
receiving a “written report” with the required details
of the alleged Academic Misconduct is a complete failure
to follow the due process requirements included in the
UAB School of Nursing Student Handbook.
38. On December 7, 2016, a panel described as
the “Grievance Hearing Panel” convened to consider
the dismissal decision of Plaintiff Page from school.
The Plaintiff was required to conduct the questioning
of witnesses herself. Although allowed to have her
lawyers present, the Plaintiff’s lawyers were not
allowed to question the witnesses presented. Additionally, employee witnesses of UAB who participated in
the allegations against Plaintiff Page were requested to
attend the hearing to testify by Plaintiff Page. Most of
these witnesses did not attend and Plaintiff Page
was not allowed to present testimony from these
witnesses at the “Grievance Hearing”. The Grievance
Panel prepared a report to Dean Harper dated December 10, 2016 that once again failed to follow the
requirements of the UAB School of Nursing Student
Handbook. The “Grievance Hearing Report” itself
describes a process that shows that the decision to
dismiss Plaintiff Page from school occurred long
before any employee of UAB furnished a “written
report” to Page of what allegations of “Academic
Misconduct” she was required to defend against. The
“Grievance Hearing Report” simply ignored the due
process requirements contained in the UAB School of
Nursing Student Handbook that requires that a
student be provided a written copy of allegations
against the student before any disciplinary action
and/or dismissal of the student from school can occur.
On or around December 10, 2016, the “Grievance
Hearing Panel” submitted a three page report to Dean

App.74a
Harper, upholding the unilateral decision of dismissal
from school made by Defendant McMullan on August
29, 2016, and upheld by Moneyham on or around
October 17, 2016.
39. For several months after Plaintiff Page was
dismissed from school, UAB employees had several
conflicting explanations on whether or not Page was
dismissed from school on August 29, 2016. At times,
Plaintiff Page was told she was dismissed from school
on August 29, 2016. At other times, Page was misled
and told that the school dismissal decision had not
yet occurred. There is no longer any confusion, doubt,
or misunderstanding about Plaintiff Page’s status as
a student in the UAB School of Nursing Anesthesia
Program. On or around December 19, 2016, the Dean
of the School of Nursing, Doreen C. Harper issued a
letter to Plaintiff Page stating that Page was “dismissed
from the Nurse Anesthesia specialty track of the MSN
program”. This letter by Dean Harper was apparently
issued after her review and receipt of a document
dated December 10, 2016 described as a “Grievance
Hearing Report” summarizing findings and recommendations received from a “Grievance Hearing Panel”
chaired by Dr. Jacqueline Moss, PhD, RN, FAAN.
40. Plaintiff Page has exhausted the administrative appeals available to be reinstated as a student.
41. Plaintiff Page has requested on numerous
occasions that she be reinstated as a student at UAB
and has requested that she be provided all due process
required by the UAB School of Nursing Student
Handbook and applicable law. Each of these requests
have been ignored or denied.

App.75a
Count I: Violation of 14th Amendment Due Process
Right Against Defendant Hicks, Defendant McMullan,
Defendant Tofani, and Defendant Board of Trustees
42. Plaintiff re-alleges and incorporates by reference all of the above paragraphs in this Count.
43. The 14th Amendment states that no state
shall deprive any person of life, liberty, or property,
without due process of law.
44. Plaintiff Page has property and liberty interests in her continued enrollment at Defendant UAB.
Her interests enjoy the protections of due process.
45. Defendant Hicks, Defendant McMullan,
Defendant Tofani, and Defendant Board of Trustees,
without following the University’s policies and procedures, and without following required due process and
procedures for dismissal of a student required by the
UAB School of Nursing Student Handbook and the
Fourteenth Amendment, improperly dismissed Plaintiff
Page from the nurse anesthesia program.
46. The fundamental requirement of due process
is the opportunity to receive the proper notice of the
allegations against the student, the specifics of the
allegations, the described process by which the allegations would be investigated, presented, and defended
against, and the opportunity to be heard at a meaningful time and in a meaningful manner after proper
notice.
47. Plaintiff Page was not given the proper notice
of allegations against her and was denied the opportunity to be heard at a meaningful time and in a
meaningful manner before being dismissed as a

App.76a
student in Defendant UAB’s School of Nursing anesthesia program.
48. Plaintiff Page was also denied a meaningful
appeal. The Defendants have failed to follow their
own policies and procedures described in the UAB
School of Nursing Student Handbook.
49. WHEREFORE, PREMISES CONSIDERED,
Plaintiff Page requests that this Court enter a judgment
in her favor in any amount that the Court may determine as compensation for the injuries caused by the
Defendants, including costs and attorneys fees, and
grant such other relief that restores Plaintiff Page’s
status as a student in the UAB School of Nursing.
Count II: Deprivation of Rights Under
42 U.S.C. § 1983 against Defendant Hicks,
Defendant McMullan, Defendant Tofani,
Defendant Board of Trustees
50. The Plaintiff re-alleges and incorporates by
reference all of the above paragraphs in this Count.
51. The Constitution states that no state shall
deprive any person of life, liberty, or property, without due process of law.
52. Plaintiff Page has property and liberty interests
in her continued enrollment Defendant UAB.
53. Plaintiff Page’s dismissal from Defendant
UAB was done intentionally, willfully, negligently,
maliciously, with deliberate indifference and/or with
a reckless disregard for the natural and probable consequences of their act, was done without lawful justification or reason, and was designed to and did cause
serious emotional pain and suffering in violation of the

App.77a
Plaintiff Page’s rights as guaranteed under 42 U.S.C.
§ 1983.
54. As a direct and proximate result of Defendant
Hicks’, Defendant McMullan’s’, Defendant Tofani’s,
and Defendant Board of Trustees actions, Plaintiff Page
has been wrongly terminated from the UAB School of
Nursing anesthesia program. Plaintiff Page, knowing
the anesthesia program would require 60 hours of work
a week, left her job as an RN to attend the program and
sacrificed 2 years of income as a nurse along with 2
years of contribution to a 401K. Plaintiff Page has
worked hard to reach this point in her career by
attending classes, studying, taking tests, treating
patients, and attending clinical. Plaintiff Page has also
incurred over one hundred thousand dollars in student
loan debt to attend the UAB School of Nursing Anesthesia Program.
55. WHEREFORE, PREMISES CONSIDERED,
Plaintiff Page requests that this Court enter a judgment
in her favor in any amount that the Court may determine as compensation for the injuries caused by the
Defendants, including costs and attorneys fees, and
grant such other relief that restores Plaintiff Page’s
status as a student in the UAB School of Nursing.
Count III: Negligence against
Defendant Hicks and Defendant McMullan
56. The Plaintiff re-alleges and incorporates by
reference all of the above paragraphs in this Count.
57. Defendants Hicks and McMullan each owed a
duty to Plaintiff Page.
58. Defendant Hicks breached that duty and was
negligent in sending a clinical evaluation to Defendant

App.78a
UAB and representing that the clinical evaluation
was pertaining to Plaintiff Page, when in fact it was
not. Defendant McMullan breached her duty to Plaintiff
Page by using a clinical evaluation on another student
against Plaintiff Page after learning that the evaluation
was erroneously prepared pertaining to Plaintiff Page.
Defendant McMullan further breached her duty to
Plaintiff Page by failing to correct the evaluation
errors and by suppressing this information from other
individuals employed by UAB involved in Plaintiff
Page’s dismissal from school.
59. As a result of Defendant Hicks’ and Defendant
McMullan’s negligent conduct, Plaintiff Page has
suffered, among other harms, damages to her career
opportunities, damages to her ability to obtain her
certification as a CRNA, loss of time practicing in her
field, emotional distress, loss of wages, and has
incurred substantial student loan fees and legal costs
including attorney fees.
60. Defendant Hicks’ and Defendant McMullan’s
negligence was the actual and proximate cause of
Plaintiff Page’s loss and/or injury.
61. WHEREFORE, PREMISES CONSIDERED,
Plaintiff Page requests that this Court enter a judgment
in her favor in an amount that a jury may determine
as compensation for the injuries caused by the
Defendants.
Count IV: Negligence against Defendant McMullan
62. The Plaintiff re-alleges and incorporates by
reference all of the above paragraphs in this Count.
63. Defendant McMullan owed a duty to Plaintiff
Page.

App.79a
64. Defendant McMullan breached that duty and
was negligent in failing to follow the basic requirements, policies, and procedures described in the UAB
School of Nursing Student Handbook by unilaterally
dismissing Plaintiff Page from school and by failing
to provide Plaintiff Page any written notice of allegations against Page before dismissal. Defendant McMullan further breached that duty and was negligent
by failing to take measures to reinstate Plaintiff Page
as a student after Defendant McMullan discovered
the errors in following basic requirements, policies,
and procedures that had occurred.
65. As a result of Defendant McMullan’s negligent
conduct, Plaintiff Page has suffered, among other
harms, damages to her career opportunities, damages
to her ability to obtain her certification as a CRNA,
loss of time practicing in her field, emotional distress,
loss of wages, and incurred substantial student loan
fees and legal costs including attorney fees.
66. Defendant McMullan’s negligence was the
actual and proximate cause of Plaintiff Page’s loss
and/or injury.
67. WHEREFORE, PREMISES CONSIDERED,
Plaintiff Page requests that this Court enter a judgment
in her favor in an amount that a jury may determine
as compensation for the injuries caused by Defendant
McMullan.
Count V: Negligence against Defendant Tofani
68. The Plaintiff re-alleges and incorporates by
reference all of the above paragraphs in this Count.
69. Defendant Tofani owed a duty to Plaintiff
Page.

App.80a
70. Defendant Tofani breached that duty and was
negligent was negligent in failing to follow the basic
requirements, policies, and procedures described in
the UAB School of Nursing Student Handbook by
unilaterally dismissing Plaintiff Page from school
and by failing to provide Plaintiff Page any written
notice of allegations against Page before dismissal.
Defendant Tofani further breached that duty and was
negligent by failing to take measures to reinstate
Plaintiff Page as a student after Defendant Tofani
discovered the errors in following basic requirements,
policies, and procedures that were required to be
followed involving the “Student Academic Complaint”
grievance procedure in the UAB School of Nursing
Handbook
71. As a result of Defendant Tofani’s negligence,
Plaintiff Page has suffered, among other harms, her
ability to obtain her certification as a CRNA, loss of
time practicing in her field, emotional distress, and
incurred substantial student loans and legal costs,
including attorney fees.
72. Defendant Tofani’s negligence was the actual
and proximate cause of Plaintiff Page’s loss and/or
injury.
73. WHEREFORE, PREMISES CONSIDERED,
Plaintiff Page requests that this Court enter a judgment
in her favor in an amount that a jury may determine
as compensation for the injuries caused by Defendant
Tofani.
PRAYER FOR RELIEF
74. WHEREFORE, PREMISES CONSIDERED,
Plaintiff Page requests that this Court:

App.81a
a.

Immediately reinstate Plaintiff Page as a
student in UAB’s School of Nursing anesthesia
program;

b.

Enter all appropriate orders and grant relief
necessary to require the Defendants to take
all corrective action necessary to return
Plaintiff Page to the status as a student
that she enjoyed prior to the illegal and
unlawful dismissal from school that occurred
on August 29, 2016;

c.

Award Plaintiff Page an amount that would
compensate her for the injuries caused by
the Defendants;

d.

Award Plaintiff Page her costs incurred in
prosecuting this action, including an award
of attorneys’ fees and expenses, pursuant to
42 U.S.C. §§ 1988; and

e.

Award and grant Plaintiff Page any such
other and further equitable relief that this
Court determines Plaintiff Page is entitled
to and that the Court may deem just and
equitable.

PLAINTIFF DEMANDS A TRIAL BY STRUCK
JURY.
Respectfully submitted this the 21st day of July
2017.
/s Mark G. Montiel, Sr.
(ASB-9485-T68M)
Attorney for the Plaintiff

App.82a
OF COUNSEL:
Mark G. Montiel, P.C.
6752 Taylor Circle
Montgomery, AL 36117
(334) 356-1899
/s Jacquelyn H. Wesson
(ASB-2515-C66W)
Attorney for the Plaintiff
OF COUNSEL:
Wesson & Wesson, LLC
212 Main Street
Warrior, AL 35180
(205) 590-1128

App.83a
NOTICE OF REMOVAL
(NOVEMBER 16, 2016)
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF ALABAMA
NORTHERN DIVISION
________________________
ASHLEY WILCOX PAGE,

Plaintiff,
v.
TODD L. HICKS, NNA, CRNA;
SUSAN P. MCMULLAN PhD, CRNA;
PETER M. TOFANI, MS, LTC(R); and
UNIVERSITY OF ALABAMA AT BIRMINGHAM,

Defendants.

________________________

Civil Action No.:
Removed From the Circuit Court of Montgomery
County, Alabama Case No. 03-CV-2016-901522.00
Pursuant to 28 U.S.C. §§ 1331, 1367, 1441 and
1446, Defendants, Todd L. Hicks, Susan P. McMullan,
Peter M. Tofani, and The Board of Trustees of The
University of Alabama (incorrectly named as “University of Alabama at Birmingham”) (collectively,
“Defendants”) and hereby serve notice of removal of
this case from the Circuit Court of Montgomery County,
Alabama, to this Honorable Court and respectfully
show as follows:

App.84a
1. Plaintiff’s Complaint and Verified Petition for
Ex Parte Temporary Restraining Order and Motion
for Preliminary Injunction were originally filed on
November 11, 2016, at 4:10 p.m. in the Circuit Court
of Montgomery County, Alabama and assigned case
number 03-C V-2016-901522.00.
2. The Complaint seeks redress of alleged violations of the Fourteenth Amendment of the United
States Constitution, 42 U.S.C. § 1983, and state law.
(Complaint, Counts I, II, III, IV, V).
3. To the knowledge of the undersigned, no other
pleadings have been filed as of the date of Defendants
became aware the Complaint had been filed.
4. This action is being removed pursuant to 28
U.S.C. §§ 1331, inasmuch as this action could have
been originally brought in this Court pursuant to 28
U.S.C. § 1331. “Federal district courts have original
‘federal question’ jurisdiction over ‘all civil actions
arising under the Constitution, laws, or treaties of
the United States.’” Clark v. Riley, 2007 WL 1655593
*2 (M.D. Ala.) (quoting 28 U.S.C. § 1331); Dunlap v.
G&L Holding Group, Inc., 381 F. 3d 1285, 1289 (11th
Cir. 2004). From the face of the complaint, this Court
has original subject matter jurisdiction over the
claims for violation of Plaintiff’s rights under the
Fourteenth Amendment of the United States Constitution under 42 U.S.C. §§ 1983. (Complaint, Counts
I, II). These claims are federal claims and the Complaint
therefore presents a federal question on its face.
Accordingly, this Court has original jurisdiction over
this matter.
5. This Court’s original jurisdiction over this
action is based upon 28 U.S.C. § 1331 and this Court

App.85a
has supplemental jurisdiction over Counts III, IV,
and V pursuant to 28 U.S.C. § 1367(a). Counts I and
II arise under the Fourteenth Amendment of the United
States Constitution. Counts I and II therefore are
claims upon which the United States District Courts
have original jurisdiction under 28 U.S.C. § 1331.
6. The factual allegations supporting the federal
claims are identical to the factual allegations supporting
the state law claims. (Complaint, ¶¶ 6-34, 42, 48, 54,
60). Because the state law claims asserted in the
Complaint arise out of a common nucleus of facts and
are so related to the federal claims that they form the
same case or controversy, this Court has supplemental
jurisdiction of the state law claims under 28 U.S.C.
§ 1367(a). Pirztando v. Miami-Dade Housing Agency,
501 F.3d 1241, 1242 (11th Cir. 2007) (citing United
Mine Workers v. Gibbs, 383 U.S. 715, 725 (1966)).
7. Because this case includes federal and state
claims and because all of those claims could have
properly been brought in federal court, removal is
proper under 28 U.S.C. § 1331, 28 U.S.C. § 1367(a)
and 28 U.S.C. § 1441(a).
8. The United States District Court for the Middle
District of Alabama, Northern Division, is the federal
judicial district and division embracing the Circuit
Court of Montgomery County, Alabama. See 28 U.S.C.
§ 81(b)(1).
9. This Notice of Removal is timely filed pursuant
to 28 U.S.C. § 1446(b).
10. The undersigned represents all Defendants.
All of the Defendants consent and join in the removal
of this action, thus fulfilling the consent requirement
of 28 U.S.C. § 1446(b)(2)(A).

App.86a
11. Pursuant to 28 U.S.C. § 1446(d), Defendants
have this day served a copy of this notice on Plaintiff
and on the clerk of the State court.
12. Pursuant to 28 U.S.C. § 1446(a), attached is
a copy of all process, pleadings, and orders served
upon Defendants and/or filed in this action.
13. A true and correct copy of this Notice of
Removal will be filed with the Clerk of the Circuit
Court of Montgomery County, Alabama.
WHEREFORE, THE ABOVE PREMISES CONSIDERED, Defendants hereby remove this cause from
the Circuit Court of Montgomery County, Alabama,
to the United States District Court for the Middle
District of Alabama, Northern Division.
Respectfully submitted this 16th day of November,
2016.
/s/ David R. Mellon
(ASB-2493-L73D)
drmellon@uasystem.edu
The University of Alabama System
UAB Office of Counsel
1720 2nd Avenue South, Suite AB 820
Birmingham, AL 35294-0108
(205) 934-3474
Attorney for Defendants Todd L. Hicks,
Susan P. McMullan, Peter M. Tofani,
and The Board of Trustees of
The University of Alabama
(incorrectly named as “University of
Alabama at Birmingham”)

